<html>
<title> - HEARING ON E-CONGRESS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   HEARING ON E-CONGRESS--USING TECHNOLOGY TO CONDUCT CONGRESSIONAL 
                   OPERATIONS IN EMERGENCY SITUATIONS
======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

              Hearing Held in Washington, DC, May 1, 2002


      Printed for the Use of the Committee on House Administration












                       U. S. GOVERNMENT PRINTING OFFIC
80-007                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York
                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director


  E-CONGRESS--USING TECHNOLOGY TO CONDUCT CONGRESSIONAL OPERATIONS IN 
                          EMERGENCY SITUATIONS

                              ----------                              


                         WEDNESDAY, MAY 1, 2002

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
[chairman of the committee] presiding.
    Present: Representatives Ney, Linder, Doolittle, Hoyer, and 
Fattah.
    Staff Present: Paul Vinovich, Counsel; Jeff Janas, 
Professional Staff Member; Reynold Schweickhardt, Technical 
Director; Channing Nuss, Deputy Staff Director; Melissa McKay, 
Clerk; Greg Orlando, Legislative Assistant to Mr. Doolittle; 
Bill McBride, Chief of Staff to Mr. Ehlers; Kim Herb, 
Legislative Assistant to Mr. Linder; Bill Cable, Minority Staff 
Director; Matt Pinkus, Minority Professional Staff Member; and 
Sterling Spriggs, Minority Professional Staff Member.
    The Chairman. The committee will come to order. I want to 
welcome the chairman of the Rules Committee Mr. Dreier, and 
also Congressman Langevin is now also arriving.
    Today the Committee on House Administration is holding a 
hearing on the concept of e-Congress and how the technology can 
be used to conduct congressional operations during emergency 
situations. You also have to bear with us. You are going to 
hear some maybe squeaks and different things in the microphone 
system. We have a guest we will be introducing on one of the 
panels who is in Prague right now, and we will be getting to 
him on the next panel.
    I just want to say a couple brief statements. I want to 
thank the members of the committee for coming today. The 
terrorist attacks of last fall forced our country and this 
institution to reexamine and reconsider long-held assumptions 
about how we are going to live, work, and conduct business here 
on the Hill. Unfortunately today all you have to do is say 
September the 11th, and a whole series of emotions and thoughts 
come to our minds. The horrific attack and the anthrax attacks 
that were directed at this Congress made it clear the necessity 
for developing plans for the Congress to operate in the event 
of a catastrophic situation that either destroyed or made 
uninhabitable the buildings we use to conduct our business.
    We know Congress has been and will continue to be a target 
for terrorist threats and actions. Today we are, as many 
Americans have been, thinking about the need to do business 
potentially differently as a result of those tragic events.
    I look forward to hearing from our House colleagues today 
and the experts on the second panel to get their thoughts and 
insights. We do have to take care to make certain that whatever 
actions we take in response to our new realities do not 
compromise the integrity of this institution or the fundamental 
principles that have made our country the longest-surviving 
democracy in the world.
    Today we are here to talk about how technology can help the 
Congress operate in the event of an emergency. This committee 
is charged with ensuring that the essential infrastructure of 
Congress continues under any circumstances. This sounds simple, 
and when everything is going well, it largely goes unnoticed, 
but it involves tremendous effort, planning, coordination, 
staff, computers, phones, communications, voting procedures, 
physical space, security, access to external/internal 
information, services, and the list goes on and on. This 
committee learned this well when we moved thousands of the 
police off site as our Capitol was attacked with a biological 
weapon.
    The recent discussion of the congressional session in New 
York will, if it becomes a reality, pose new but in some cases 
similar logistical problems. Under normal circumstances the 
task of keeping this Congress functional is a heavy burden. 
Under emergency circumstances the task can seem almost 
insurmountable. But with proper effort, resources and planning, 
the solutions are almost always close at hand.
    As we convene this hearing, I do want to make something 
clear: This institution has a history extending over 200 years 
that is based on face-to-face deliberation. That should be 
preserved. But I also believe the purpose of this hearing is to 
discuss options that could happen in unusual situations.
    Without objection, I have other statements for the record.]
    [The information follows:]

    While this hearing will focus on the feasibility and 
ramifications of using technology to conduct our operations, we 
are today only considering proposals that will be implemented 
under extreme emergencies not utilized, for day to day 
operations.
    In the aftermath of September the eleventh and the anthrax 
attack, this committee focused its attention on taking 
immediate steps to ensure the safety of Members and staff, 
improved our communication capabilities, and took steps to 
ensure that House operations can continue under any 
circumstances. Many of the procedures that have been put in 
place since last fall are of a sensitive nature and cannot be 
discussed in a forum like this, but many are widely known and 
can be recounted. We have distributed Blackberries to members 
and staff, almost 1800 in the House today. We have secured our 
computer network, and are working to establish redundant 
capabilities that will function if our existing system is 
destroyed or inaccessible. We have off site office space for 
Members to relocate in the event of a limited problem. We have 
planned for the possibility of having Congress meet elsewhere, 
if the Capitol becomes unavailable. We have enhanced our 
emergency communications capabilities. We have taken simple, 
but important tasks like making certain the alarm systems are 
operable and each office has an evacuation plan. Just this 
morning, Mr. Hoyer and I announced the distribution of 
emergency communication phone cards to members. Members of this 
committee, their staffs, and employees of the House have done 
an outstanding job in implementing these changes.
    Today, we need to begin contemplating additional changes in 
a very thoughtful manner. We are fortunate to have two 
distinguished members Mr. Drier, Chairman of the Committee on 
Rules, and Mr. Langevin who introduced legislation to direct 
the National Science Foundation to study the feasibility of 
convening an E-Congress, with us to testify. These two 
gentlemen will serve as our first panel.
    Our second panel we have four distinguished experts from a 
variety of disciplines that will help us understand the issues 
we need to contemplate. I will introduce them before they begin 
but for now I will yield to others Members of the Committee who 
wish to make an opening statement.

    The Chairman. I also want to thank the Members for coming 
to the hearing.
    Mr. Hoyer.
    Mr. Hoyer. Thank you very much, Mr. Chairman. I want to 
thank you for convening this very, very important hearing. A 
year ago today the vast majority of Americans, including many 
of us on this dais, would have regarded the creation of virtual 
or electronic Congress in the event of a national emergency as 
an interesting, perhaps academic, discussion, a story line 
produced by an overactive Hollywood imagination, perhaps, but 
not something that was seriously of concern to us. Most of us, 
I believe, regard doomsday scenarios with a certain level of 
detachment or denial, but we all know that in the wake of the 
unconscionable terrorist attacks on September 11th and the 
subsequent anthrax attacks on this Capitol complex, we cannot 
afford to live in comfortable complacency.
    Let me note that just yesterday I visited Ground Zero. 
Representative Istook and I went up to congratulate those in 
the Secret Service and in Customs who played such an 
extraordinary role on that day. Seeing it on television--and 
most Members of Congress have visited Ground Zero--it has now 
gone from having been a rubble pile of seven stories high to a 
hole six stories deep. But it is a humbling experience to stand 
there, and it is also an experience that gives you the 
responsibility, I think, and the concept of the responsibility 
we have to not only preclude as much as we can the risk of that 
happening again, but also to be prepared for the contingency. 
It convinces me that our duty and common sense dictate that we 
be prepared for the unthinkable.
    I know I don't need to remind those of you here that the 
heroism and courage of many strangers in the skies above the 
Pennsylvania countryside on September 11th, we ourselves might 
be meeting in a very different circumstance. Thus I know we 
will approach the matter with the seriousness it deserves.
    I want to compliment my colleagues and good friends from 
Rhode Island and from California, particularly the gentleman 
from Rhode Island for his thoughtful contribution to this 
debate, and specifically for his introduction of H.R. 3481, the 
Ensuring Congressional Security and Continuity Act. This 
legislation would require the National Institute of Standards 
and Technology to investigate and report to Congress on the 
feasibility and cost of two issues; first, implementing a 
secure system for remote voting and communication for Members 
of the Congress if circumstances require the Congress to 
convene without being in a single location. Again, prior to 
that day in September, probably that would have been perceived 
as a scenario not worth spending a lot of time on, and that is 
not now the case.
    Secondly, it would establish a system to ensure business 
continuity in circumstances where Members of Congress and their 
staff cannot access their offices in Washington, D.C. Again, 
prior to September 11th I think there would have been few, if 
any, would have thought that that was a reasonable possibility. 
On the morning of September 11th as we left our offices, and as 
most of us could not contact either our offices or our 
dispersed staff, cell phones weren't working--we now have 
Blackberries, which are in response to that--but we had found 
that this becomes a very real possibility and something that we 
need to plan for.
    It is noteworthy that this legislation does not use the 
phrase ``national emergency,'' but I think that is the clear 
implication, Mr. Langevin, of your bill.
    I am particularly interested in hearing the views of our 
witnesses on the technical and financial feasibility of this 
and other proposals. I am mindful of the constitutional 
questions provoked by your bill, Congressman Langevin, and 
other proposals that have been made and specifically look 
forward to hearing our witnesses' views on how this legislation 
and other proposals might affect the institution's ability to 
assemble, act together and deliberate.
    I again want to welcome the chairman of the Rules 
Committee, Mr. Dreier, who has been through the years in the 
Minority and in the Majority a very thoughtful contributor to 
how this organization, the House of Representatives, the 
People's House, can be more effective and more efficient both 
in good times and in bad.
    And so we thank them both for their presence.
    I thank you again, Mr. Chairman, for holding this hearing.
    The Chairman. Thank you, Mr. Hoyer.
    Mr. Linder.
    Mr. Linder. I, too, am grateful for your holding these 
hearings. I am a member of the Rules Committee, and the issues 
that come out of this hearing and changes that we might make 
will wind up before the Rules Committee in terms of technology. 
Let me just say that the Great Seal of the United States 
contains a motto, E Pluribus Unum: Out of Many, One. The House 
of Representatives embodies this motto. Members representing 
many States and even more interests come together in these 
buildings and halls to share their unique interests and 
insights. The resulting exchange of ideas undoubtedly impacts 
legislative decisions as we must combine our unique individual 
views to declare a single policy in the best interest of our 
Nation.
    The floor of the House is not solely a place to cast votes. 
As we stand in that Chamber flanked by the relief portraits of 
the great lawgivers, we educate, we cajole, we convince, we 
listen. These are necessary components of our legislative 
duties. They are firmly rooted in the Founding Fathers' intent 
when establishing a legislative body elected by and 
representative of the people of this Nation. I fear that by 
instituting provisions allowing Congress to forego these 
responsibilities, we will do an injustice to the legislative 
process and thus to the American people.
    I will say honestly I am familiar with proposals to explore 
or institute remote voting procedures. In fact, the Rules 
Committee has held hearings on this very issue in the past. Our 
findings on this issue have never been very favorable as we 
have found that the convenience offered by modern technology 
hardly offsets the loss in the quality of the deliberative 
process. However, the events of September 11th and the 
subsequent anthrax attacks are forcing us to reexamine this 
issue.
    While I believe that 200-plus years of history and 
precedent cannot be forsaken in the name of convenience or 
efficiency, I recognize that it may be worth exploring how, in 
the event of emergency, technology can facilitate the 
continuation of the work of the people.
    Alexander Hamilton said in Federalist Number 22, ``In those 
emergencies of a Nation in which the goodness or badness, 
weakness or strength, of its government is of greatest 
importance, there is commonly a necessity for action. The 
public business must in some way or other go forward.''.
    Nonetheless, I continue to believe that the role of 
technology should continue to be one of facilitation, namely in 
communication and the exchange of information, rather than one 
of substitution. Our work collectively as elected 
representatives of the people necessarily entails dialogue and 
interaction between Members. In the worst of crises, I believe 
we will relish the opportunity to reach out to our colleagues 
and fellow citizens to share our thoughts and experience, and 
technology may play a role in that. However, I believe that we 
must also convey that a legislative assembly should not be 
deterred from assembling. I believe it is our responsibility to 
ensure that this message is heard. Thank you.
    The Chairman. Thank you.
    Mr. Fattah.
    Mr. Fattah. Mr. Chairman, let me share in the remarks of my 
colleagues who have already spoken. I think it represents the 
range of views and twists and turns in this subject matter. I 
look forward to the testimony. I do have a conflict to which I 
have to run out, but I will be back, and I will read each of 
the testimonies when I return. Thank you.
    The Chairman. Appreciate it. Thank you.
    Mr. Doolittle.
    Mr. Doolittle. I have no statement, Mr. Chairman.
    The Chairman. With that we will begin. Appreciate both of 
our colleagues.
    Mr. Dreier.
    Mr. Dreier. Thank you, Mr. Chairman, and Mr. Hoyer, and Mr. 
Fattah, and Mr. Linder, Mr. Doolittle. Thank you very much for 
holding this hearing. I would like to begin by also associating 
myself with the very fine remarks that all of you have made on 
this issue recounting what we experienced on September 11th and 
the aftermath and the great responsibility that we have in the 
wake of that tragedy.
    I want to compliment Mr. Langevin for the legislation that 
he has introduced, and I appreciate the fact that he is 
spending time thinking about this issue and trying to put 
together a way in which we can respond to the possibility of 
another tragedy.
    I want to say that I was very proud 7 years ago to be the 
first person to preside over a fully interoperative committee 
hearing of the Congress. We had a Rules subcommittee hearing 
where we had questions coming in of our witnesses from e-mail, 
along with having one of our panel members, one of our 
committee members by teleconference. We had, of course, C-SPAN 
covering it. So we had the wide range of technological 
advantages 7 years ago utilized for that hearing.
    I am also very proud to have worked with a lot of our 
colleagues, as Mr. Hoyer mentioned, in the past to make sure 
that we bring the United States Congress into the 21st century 
technologically. And I think that that is something we need to 
do to make sure that this institution is able--and we deal in 
the marketplace today--to be out there and to be able to 
provide information to the people whom we are honored to 
represent and to others who have an interest in what goes on 
here.
    And so it is with that as a background that I say that I 
believe that what Mr. Hoyer said about duty and common sense is 
very important for us to pursue, and that is why I believe that 
as you look at this legislation, it is very important to not 
only pursue the technical side of this, the technological 
changes and all that are so important, but I think in many ways 
more important, and based on, with Steny having just yesterday 
been at Ground Zero, and most of the rest of us have had the 
opportunity to be there, I mean, standing there clearly 
underscores for all of us the grave responsibility that we 
have.
    And so that is why as you look at this legislation and we 
think of that inspired document that James Madison put 
together, the U.S. Constitution, with the separation of powers, 
it seems to me that we need to look at this issue by focusing 
on both the institutional and the constitutional framework of 
this. And that is why, I guess, my one message would be think 
about what it is that the Framers had in mind.
    Now, you, Mr. Chairman, mentioned the fact that we have 
face to face interaction here. That happens to be one of the 
most important aspects of this institution. We are the People's 
House; 435 Members, all of whom have been elected. We are the 
only--Federal officials who have to attain office through 
election. We all know that. And so as Members of the People's 
House, I believe that it is important for us to make sure that 
we do meet and spend time thinking about these issues and 
anguish over them and do it together.
    And so, yes, there are logistical challenges that we face. 
If the U.S. Capitol had been blown up on September 11th, we 
obviously would have dealt with the question of how we meet. 
But if the transportation system in this country had still been 
in existence, we could put into place a structure, and you and 
I discussed this the other day, Mr. Chairman, where Members of 
Congress could, in fact, meet at a separate site.
    So I think that what we need to do is to realize that that 
is the greatest deliberative body known to man, and it is very, 
very important that we utilize that in the best way possible as 
envisioned by the Framers. And so I guess that, again, that 
that message is one of go slow. Think long and hard before we 
make any kinds of changes in the way we do business around here 
when it comes to in any way undermining our deliberative 
opportunities and responsibilities.
    It is going to be a challenge. I look forward to working 
with all of you on this. As Mr. Linder said, he serves on the 
Rules Committee, we will clearly be working with this issue 
there. And again, I appreciate Mr. Langevin's work.
    I have an absolutely brilliant statement that has been 
prepared that I would like that you submit for the record, and 
I sort of stumbled through a few of the points that have been 
in it. And I hope very much, Mr. Chairman, that you will excuse 
me because I have to take off for another meeting. So thank you 
very much again for your fine work, and I hope very much you 
will heed my message.
    The Chairman. Certainly appreciate your testimony. Thank 
you.

                     Statement of Hon. David Dreier

    Thank you, Mr. Chairman, for inviting me to testify on the 
legislation introduced by our colleague, Jim Langevin, calling for a 
study of the feasibility of implementing a secure computer system for 
remote voting and communication for the Congress.
    Since 1996, the Rules Committee has been studying the impact of 
technology on the legislative process, and we have worked closely with 
you and your committee to bring about a number of changes in the rules 
of the House to facilitate the use of technology without undermining 
the deliberative nature of the institution.* The Rules Committee has 
actually had several hearings and meetings over the past six years 
which examined the feasibility of remote voting in varying 
circumstances and, I must admit, the discussions were not favorable.
    The events of September 11 and the following anthrax scare made it 
clear that we as a country are no longer beyond the reach of those who 
mean us harm, and forced upon us the recognition that fears heretofore 
unknown must now be acknowledged. Agencies from the federal government 
down to the local level are now faced with developing contingency plans 
on matters ranging from airline security to postal service operations.
    Congressman Langevin's legislation, H.R. 3481, proposes to deal 
with one of the most critical contingency plans we might face--the 
continuity of Congress in case of a crippling attack on its facilities 
or the nation's transportation network.
    Various futurists and even some of our tech savvy colleagues have 
long supported the idea of a ``virtual Congress'' where Members could 
attend committee hearings, even vote, without being physically present 
in Washington, D.C. In the recent past, we have closed the door on even 
limited trials of such applications, such as requests to allow for 
remote committee attendance during family illness or emergency for the 
simple reason that this would invariably lead to pressures to widen the 
circumstances under which such requests are accepted.
    Following 9/11 and the shutdown of congressional office buildings 
during the anthrax contamination, the clamoring for the adoption of 
virtual Congress technologies has been heard more regularly, and given 
more credence than ever before.
    H.R. 3481, for example, seeks to address these concerns by calling 
for a study into the possibility of ``implementing a secure computer 
system for remote voting and communication for the Congress and 
establishing a system to ensure business continuity for congressional 
operations.'' A study, limited and tailored to very narrow 
circumstances, and left at that, is probably worthwhile. However, the 
study proposed by H.R. 3481 is not limited, and we must be extremely 
wary of considering any recommendations that arise from a study due to 
the increasing pressures it will bring, both internally and externally, 
to apply them to regular House activities.
    Congress is an inherently human institution. As such, the study of 
any disaster-related contingency planning must go beyond the purely 
technical and include an institutional and constitutional framework as 
its basis. Therefore, I would recommend having the Library of Congress 
do the study instead of the National Institute of Standards and 
Technology.
    Over the recent past, Congress has been unrivaled as an institution 
in applying technology to provide the public with access to Members and 
real-time legislative information such as committee hearings, floor 
activities, and roll call votes. At the same time, however, we have 
been purposefully hesitant to apply new technologies to the primary 
legislative and deliberative responsibilities of the institution for 
fear of undermining or even destroying the key component upon which 
Congress is based and functions--the personal, face-to-face 
interactions between and among its Members as they seek to deliberate, 
debate and reach consensus on any number of issues.
    No technology, no matter the clarity of the speakerphone or the 
resolution of the video display, can provide for the essential human 
atmosphere required to develop the interpersonal, collegial 
relationships that are at the heart of the institution.
    As Claremont McKenna College professor Joseph Bessette noted in The 
Mild Voice of Reason, the ``deliberative process involves three 
essential elements: information, argument, and persuasion.'' Thanks to 
the vision and commitment of this committee, we have successfully, and 
aptly, applied technology to enhance the sharing of information for 
both internal and external purposes. Technology has even been used at 
the basic level as a tool for argument and persuasion. However, no 
technology exists that can fully reproduce the engagement and emotion 
that occurs during the face-to-face, in-person bargaining, and the 
sharing of ideas and passions.
    Failure to take this into consideration when looking to apply 
various technologies to the operation of Congress as a deliberative 
body can have a serious, even fatal, impact on its ability to function 
as conceived by our Founding Fathers. Put simply, the increasing 
substitute of an electronic environment for that of the Congress as we 
have long known it would inevitably lead, step by step, to the 
questioning of the very relevance of the institution.
    The fact that technology can be used for various applications 
certainly does not mean that it should. That corporate boards may 
permit meetings or voting via video conference or that college students 
may take classes over the Internet does not mean that these same 
technologies can be successfully adopted for use by Congress. The 
structure of Congress varies widely from the more interpersonal 
military or corporate world where action below is taken based on orders 
from on high and where technology is easily applied as an effective 
method of communication, information sharing, and command and control.
    Considering the desirability or feasibility of remote voting, 
communications and other technologies in any but the most extreme, 
narrowly-defined, instances would lead to increased pressure to 
establish and then build such a system. Even the physical destruction 
of the Capitol, as horrible as that would be, would not be a 
justification for remote voting because, absent the simultaneous 
disruption of the nation's transportation system, the Members who make 
up the Congress could still meet in one location.
    Congress has refined from applying various technologies to its 
inherently deliberative functions not for reasons of technophobia or 
nostalgia, but in consideration and acknowledgment of the human 
foundation of the institution. We must be extremely cautious and wary 
of taking any steps that may open the door to forces that, no matter 
their intentions, lead to a path that runs counter to the carefully 
conceived plans and purposes of our Founding Fathers when they designed 
Congress.

    The Chairman. We will move on now to Mr. Langevin.

   STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Morning, Mr. Chairman and Ranking Member 
Hoyer, members of the committee. I would like to thank you, 
first of all, for allowing me to testify here today. Before I 
begin my formal statement, I just wanted to say how 
appreciative I have been, Mr. Chairman, of your guidance and 
your leadership on this issue from day one. It has taken no 
convincing on your part to realize how important this issue is. 
You have shown, as the Ranking Member Hoyer and this committee 
have shown, strong leadership in responding quickly to the new 
demands of post-September 11th.
    Mr. Hoyer. Mr. Chairman, if I might, before Mr. Langevin 
gives us his formal testimony, I want to really thank him. I 
mentioned him, obviously, in my opening statement, but Mr. 
Langevin, as all of us know, was a member of the State 
legislature, then elected statewide in Rhode Island as the 
secretary of state, so he brings a wealth of experience in 
dealing with these issues. He has been extraordinarily helpful, 
Mr. Chairman, to us on election reform, bringing the knowledge 
he had from his secretary of state's position in Rhode Island, 
but also on this issue he has obviously given a lot of thought 
to government and its structure and its operation.
    And, Jim, we really do appreciate all the work you have 
done on this and look forward to your testimony.
    Mr. Langevin. Thank you, Mr. Hoyer. I appreciate your 
comments.
    I also would like to mention how much I have appreciated 
consulting with both you, Chairman, and Mr. Hoyer on this issue 
as well as Representative Cox and Representative Baird, who 
also are supportive of this proposal.
    But again, thank you, Chairman Ney and Ranking Member 
Hoyer, for holding today's hearing on E-Congress. It is no 
secret that I have been promoting this idea for months now. My 
bill, the Ensuring Congressional Security and Continuity Act, 
H.R. 3481, is just a first step. Today's hearing takes the next 
step by examining the numerous issues involved in planning for 
the unthinkable. I commend you again for your efforts.
    First let me be very clear that my E-Congress idea in this 
entire discussion today is about preparing for an emergency 
situation in which Congress could not meet in the Capitol or 
any of these building due to some future attack or natural 
disaster. I do not want this to substitute for the traditional 
face-to-face interactions that are vital to our day-to-day 
work.
    September 11th and the subsequent anthrax attacks on our 
congressional offices exposed just how vulnerable we are, 
particularly because we are centrally located. In fact, had the 
Pennsylvania flight taken off on time and headed straight for 
the Capitol, and had the Capitol not been already evacuated, we 
would have been casting our Journal vote at the very same time.
    I am not alone in any concerns for the unthinkable. Four 
years ago Speaker Gingrich and President Clinton made an 
historic commitment to analyze our current terrorism threat 
both here and abroad, to develop concrete recommendations to 
stem the tide of American hatred that has swept over specific 
regions of the world, and to ensure this country remain not 
only safe, but that our freedom and democracy would not be 
shackled by fear or danger.
    The Hart-Rudman report was the result of this visionary 
pledge. This report concluded that America will become 
increasingly vulnerable to hostile attack on our homeland, and 
our military superiority will not always protect us. States and 
individuals will likely acquire weapons of mass destruction, 
and Americans will likely die on American soil. We can no 
longer ignore these warnings.
    E-Congress is a powerful option to ensure we are prepared 
for terrorism or any disaster, but it is not the only option. I 
note that some Members would not want to vote electronically or 
may not be familiar with the Internet. However, today's hearing 
and my mantra over the past several months is about much more 
than this one aspect of congressional continuity.
    What I would like to see is first a concrete plan of action 
developed, approved and understood by all Members of Congress 
by the end of this year; second, a plan that includes an 
Internet-based and satellite-based communications system where 
a Member can log on with secure biometrics from anywhere in the 
world to acknowledge that he or she is alive and not 
incapacitated and give his or her physical location. This 
system also allows the Member to get directions from the House 
leadership on the number of Members who have may have been 
killed or incapacitated, or what immediate governmental 
activities must occur in response to the attack or disaster, 
and a time line for when, where and how Congress will 
reconvene.
    Third, the plan could also include alternative meeting 
locations, a means of deliberating, a format for following 
parliamentary procedure, a way for the public to follow 
congressional activities and ensure Congress upholds the 
democratic process, along with many other details for effective 
constitutional continuity in congressional operations.
    The most important thing is for this plan to establish a 
two-way backup communications system that is both reliable and 
secure. Moreover, this as I have stated repeatedly, this plan 
would only be executed in an emergency.
    Thank you, Mr. Chairman and Mr. Hoyer, for starting this 
much-needed dialogue on an issue few want to discuss. I believe 
it is our duty as Members of Congress to lead this country, to 
prepare the legislative branch for any kind of disaster, and to 
ensure that freedom and democracy always prevail. Again, my 
thanks for your leadership on this issue.
    The Chairman. Thank you.
    [The statement of Mr. Langevin follows:]

                 Statement of Congressman Jim Langevin

    I would like to thank Chairman Ney and Ranking Member Hoyer for 
holding this hearing today on E-Congress.
    It is no secret that I have been promoting this idea for months 
now. My bill, the Ensuring Congressional Security and Continuity Act 
(H.R. 3481), is just a first step. Today's hearing takes the next step 
by examining the numerous issues involved in planning for the 
unthinkable.
    Mr. Chairman, you have been extremely supportive of my interest in 
pursuing a means to ensure that Congress can continue to communicate 
and function regardless of future attacks in whatever form--be it 
weapons-based, anthrax or even a cyber attack--or a natural disaster 
like the tornado that severely immobilized many of our Maryland 
neighbors. I appreciate your leadership in this endeavor, but I fear 
that many of our colleagues do not understand just how necessary it is.
    Just this week, CIA Deputy Director for Operations James Pavitt 
said, ``Despite the best efforts of so much of the world, [as far as] 
the next terrorist attack--it's not a question of if, it's a question 
of when.''
    September 11th and the subsequent anthrax attack on our 
congressional offices exposed just how vulnerable we are, particularly 
because we are centrally located. In fact, had the Pennsylvania flight 
taken off on time and headed straight for the Capitol, we would have 
been casting our journal vote at the very same time.
    I am not alone in my concerns for the unthinkable. Four years ago 
Speaker Gingrich and President Clinton made a historic commitment:
          To analyze our current terrorism threat both here and abroad,
          To develop concrete recommendations to stem the tide of 
        American hatred that had swept over specific regions of the 
        world, and
          To ensure this country remained not only safe, but that our 
        freedom and democracy would be unshackled by fear or danger.
    The Hart-Rudman Report was the result of this visionary pledge. 
This Report concluded that ``America will become increasingly 
vulnerable to hostile attack on our homeland, and our military 
superiority will not entirely protect us. . . . States, terrorists, and 
other disaffected groups will acquire weapons of mass destruction and 
mass disruption, and some will use them. Americans will likely die on 
American soil.''
    We cannot ignore what so many leaders and experts in international 
terrorism have been telling us over the past several years. The time is 
ripe for Congress to take responsible, appropriate steps to ensure that 
we can continue to function smoothly if the Capitol Hill buildings are 
destroyed or Members of Congress cannot deliberate in Washington, DC.
    E-Congress is a powerful option, but it is not the only option. I 
know that some Members would not want to vote electronically or may not 
be familiar with the Internet. However, today's hearing and my mantra 
over the past months is about much more than this one aspect of 
congressional continuity. What I would like to see is:
    First, a concrete plan of action developed, approved and understood 
by all Members of Congress by the end of this year.
    Second, a plan that includes an Internet-based and satellite-based 
communications system where a Member can log on with secure, biometrics 
technology from anywhere in the world to acknowledge that he is alive 
and not incapacitated and give his physical location. This system also 
allows the Member to get directions from the House leadership on the 
number of Members who have been killed or incapacitated, what immediate 
governmental activities must occur in response to the attack or 
disaster, and a timeline for when, where and how Congress will 
reconvene.
    Third, the plan could also include alternative meeting locations, a 
means of deliberating, a format for following parliamentary procedure, 
a way for the public to follow congressional activities and ensure 
Congress upholds the democratic process, along with many other details 
for effective, constitutional continuity in congressional operations.
    The most important thing is for this plan to establish a two-way 
backup communications system that is both reliable and secure. 
Moreover, this plan would only be executed in an emergency. The 
traditional personal, face-to-face interactions that we all enjoy would 
not be jeopardized. The E-Congress idea is simply a means to facilitate 
an organized system for congressional continuity if, and only if, an 
attack or disaster strikes again.
    Thank you Mr. Chairman and Mr. Hoyer for starting this much-needed 
dialogue on an issue few want to discuss. I understand this reluctance. 
Who wants to face such grim prospects? But we must. It is our duty as 
Members of Congress to lead this country, to prepare the legislative 
branch for any kind of disaster, and to ensure freedom and democracy 
always prevail.

    The Chairman. I have just one brief question; also, I 
guess, you know, a comment, too. If you had--some of the 
argument against the theories of what you and many Members are 
promoting is that we don't have the face to face. We should 
take alternative means. You know, that attack on Washington, of 
course, happened while we were in session. If something happens 
while we were all back home in the districts, or some Members, 
you know, would be traveling, and some type of attack happens 
on a massive scale--or let me throw something else out there, 
because we all talk about the situation we had, but what about 
a smallpox or quarantine? That hasn't been discussed yet.
    So I guess if we had preparations and had two or three 
sites across the country and were able to logistically, because 
of a lot of panic that would occur if this was a nationwide 
event of great proportion, then, you know, traffic would be 
stopped, you couldn't get to airplanes, you couldn't get to 
automobiles. You literally would almost have to account for a 
huge military operation that would pick people up, and, you 
know, helicopters and 435 Members and find out where they are 
at in the first place with the systems working. And that is 
what leads me to really think about this. Even if you had three 
other prepared sites, the logistics of trying to get people 
there could take quite a long time. So I think this is, you 
know, one of the reasons it should be looked at.
    Now, there are also people that talk about the slippery 
slope; while we have this in operation, we will just start 
using this as a regular routine. I think that is a great 
concern a lot of people have. What are your ideas to have 
safeguards in there that if this were instituted, it would be a 
rare, rare occurrence of use?
    Mr. Langevin. Well, on that score I would agree with you. 
Also I share the concern of my colleague Mr. Dreier that we 
approach this issue from different perspectives, and we may not 
completely agree on this. The one thing we do agree on is in an 
ideal world we meet here at the Capitol, that we continue 
operations as normal with normal day-to-day interactions, face-
to-face communications. But as you know, Mr. Chairman, it is 
not enough to wish anymore that that will always be the case.
    What I would say is that we make it clear from the very 
beginning that that is for emergency purposes only. We 
shouldn't get in the habit of using it on a routine basis. It 
should be clear in a mission statement that it was intended for 
an emergency backup situation to give us a chip, in a sense, in 
our back pocket, as it were, that we could pull out if we 
needed to exercise this option of secure electronic 
communications if the need arose.
    I think that it makes us more secure if those who would 
wish us harm out there know that we have other options, other 
than just meeting at the Capitol. I think it is a more of a 
deterrent than anything else perhaps we could think of that 
would ensure our security in the long run. It would force them 
perhaps to look elsewhere if they were to think of an attack 
because they know that we have other options and not just 
meeting at the Capitol as our only option.
    The other thing--and you raise it very directly, Mr. 
Chairman--the other thing we haven't talked about is the issue 
of it is not only about a disaster that would destroy 
Washington or a central meeting location for the Members of 
Congress, but in the event of a smallpox attack or some other 
bio or chemical attack, we may not be able to come in contact 
with one another. It may be dangerous to have normal 
interaction for a time. Again, that gives us--E-Congress gives 
us the option of being able to step back and assess when it 
would be safe to meet again in a safe location.
    The Chairman. There are other questions to be asked, but I 
want to make one comment for further discussions and longer 
discussions. But some people also noted in the event we 
couldn't have contact with each other, there is the President 
and executive ability of Executive Orders, and we have leaders 
on both sides of the aisle.
    But, you know, Congress is elected, and that is the other 
thing that keeps popping in my mind, you do need a Congress, 
and things could only go on so long with 8 or 10 people 
involved. You need an entire body involved, whether it is 
person to person or electronically somehow. So I just think 
that is a whole other issue, but it is something that is out 
there. I agree Members need to be part of it.
    Mr. Hoyer.
    Mr. Hoyer. Abraham Lincoln said almost a century and a half 
ago that as our problems are new, we must think and act anew. I 
think really that is the context of Congressman Langevin's 
legislation, Congressman Baird's legislation and others in 
terms of what do we do if we lose a significant number of the 
Congress, how do we replace them. Former Speaker Gingrich and 
former Speaker Foley have made proposals. So I think this is a 
time when we really do need to think about contingencies.
    I think all of us agree with Congressman Dreier that we 
ought to be cautious. We ought to proceed thoughtfully and not 
have a knee-jerk reaction. On the other hand, the scenario of 
that plane from Pennsylvania not being heroically stopped in 
its tracks by those courageous citizens who were on the plane, 
it could have hit, could have hit while, as was suggested, we 
were voting on the Journal, and had that occurred, we may well 
have lost a significant number of Members.
    And I think every Member remembers essentially the chaos 
and concern--concern understates it--that Members had about 
feeling disconnected, and nothing physically happened in 
Washington. Obviously a crash happened at the Pentagon, but in 
the Capitol complex nothing physically happened. But we know 
that there was a great disconnect of the Congress for a 
significant period of time when we reconvened--a significant 
number of Members--at the Capitol Police station, as you 
remember, you and I were there Mr. Chairman--the angst that 
Members felt about being disconnected and how they could get 
back together as a Congress to be able to respond were very 
serious. And I think that is what Congressman Langevin is 
appropriately focused on.
    I look forward to hearing the testimony of all of our 
witnesses, all of whom are very thoughtful observers of 
government themselves and will have some thoughts on this. I 
thank you for thinking anew, if you will, and trying to figure 
out how we respond to a contingency that up to this point in 
time has essentially been one that none of us has really felt 
was a real one because we thought our homeland was secure, and 
indeed many felt it was invulnerable.
    We found that out to be not the case. Not only do we need 
to contemplate, obviously, terrorists or states that might 
visit harm on us, but in my own district just a few days ago we 
saw that nature visits on us events which disrupt. We had an F-
5 tornado, as you know, that devastated a town in my district. 
We could have a natural phenomenon here that could perhaps not 
do what was done in La Plata, but nevertheless have an effect 
where we need a contingency plan in place; i.e., Mr. Chairman, 
you pointed out dispersed Members unable to get back for 
whatever reasons because the air traffic control system goes 
down for whatever reason, through terrorist or some other 
phenomenon.
    So I thank you, Congressman. I don't have a question. I 
think I will have a lot of questions after we hear all our 
witnesses. And we look forward to sitting down with you and 
trying to come up with proposals that are both cautious and 
common-sense proposals that will provide for contingencies that 
we would prefer not to think about, which we must.
    Mr. Langevin. Thank you.
    The Chairman. Mr. Linder.
    Mr. Doolittle.
    With that we appreciate your time here today and your 
testimony and the issue you brought to the committee.
    Mr. Langevin. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. We will move on to the 
second panel.
    I want to thank the panel for being here today. Let me just 
run through the names of the members of the panel today. We 
first have Don Wolfensberger. Most people on Capitol Hill know 
Don, former staff director for Jerry Solomon in the Rules 
Committee.
    And the second witness will be Dr. Frantzich, and he is a 
professor at the U.S. Naval Academy who has a Ph.D., who is on 
a Fulbright scholarship in Prague, and we can see him. You 
should be able to view him in back there, it is working, and he 
will be video conferencing with us. So we are happy to have him 
such a long distance.
    The third witness will be Dr. Norman Ornstein, resident 
scholar to American Enterprise Institute for Public Policy 
Research.
    And the fourth is Robert Thibadeau. Dr. Thibadeau is on 
leave from Carnegie Mellon computer science department.
    We want to welcome all of you, and we will start with the 
Mr. Wolfensberger.

STATEMENTS OF DONALD R. WOLFENSBERGER, DIRECTOR OF THE CONGRESS 
  PROJECT, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS; 
  STEPHEN FRANTZICH, PROFESSOR, UNITED STATES NAVAL ACADEMY; 
     NORMAN J. ORNSTEIN, Ph.D., RESIDENT SCHOLAR, AMERICAN 
  ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH; AND ROBERT 
 THIBADEAU, Ph.D., DIRECTOR OF SECURITY ARCHITECTURES, SEAGATE 
                          TECHNOLOGIES

              STATEMENT OF DONALD R. WOLFENSBERGER

    Mr. Wolfensberger. Thank you, Mr. Chairman and members of 
the committee. Good to see you all again. It is nice to know 
there are members of the Rules Committee and the Appropriations 
and this committee itself all of which are a bulwark of this 
institution. I appreciate this opportunity to testify today on 
how best to resume the work of the Congress if a catastrophic 
occurrence results in large loss of lives of Members and 
Congress is preventing from meeting here in the Nation's 
Capital.
    Specifically, you are interested in whether some form of e-
government might substitute for or complement our traditional 
two-century-old practice of Congress sitting together in a 
single place deliberating together about the people's business 
in the sunlight of public scrutiny and accountability. As I 
indicate in my testimony, I purposely loaded up that last 
sentence to tip my hand as to where I am coming from, and that 
is on the side of retaining our system of collective 
deliberation.
    Congress, as you know, literally means a coming together. 
It seems to me if you lose that, you lose the very essence of 
our representative and deliberative democracy. If you start at 
the wrong end of the equation of how to go about reassembling 
the Congress, that is, in terms of what is the most convenient, 
safe and secure for individual Members instead of what is in 
the best interest of the Congress and the people it serves, it 
seems to me you will be making a terrible mistake.
    In that regard, providing for a computerized system whereby 
Members may vote on legislation from their districts, I think, 
would be contrary to the best interests of this institution and 
of the American people because it would destroy the very nature 
and strength of our system, which is based on collective 
deliberation. It would produce what I have called a reverse 
Field of Dreams scenario. You might remember that in the movie 
the Field of Dreams the Kevin Costner character was told by 
this voice about his dream of a baseball stadium, build it and 
they will come. Well, I am suggesting that if you build this 
computerized voting system, it will have the opposite effect on 
Congress as we know it. Build it, and they will stay away.
    The American Express card, as you know, has the motto, 
don't leave home without it. I fear that if you give a Member a 
remote voting card, it will have the motto, don't leave if you 
have it. I think you might as well rename the House of 
Representatives the Houses of Representatives because I think 
Members will be inclined to stay at home and vote from the 
comfort of their homes.
    It seems to me that this might well be a very much family-
friendly type of system, but I don't think it is people-
friendly in the sense of we, the people, ordain this 
constitutional system to form a more perfect Union.
    I have indicated in my testimony some examples of how here 
in the Congress by our rules and practices we have, I think, 
too much encouraged the idea that legislating only means 
voting. And so it is little wonder then that Members might well 
jump at the chance of being able to legislate from their homes 
if all you have to do is vote. But it seems to me that that 
misses the whole point of coming together to deliberate, 
compromise, build a consensus on public policy matters that 
will have an acceptance, understanding, legitimacy in the eyes 
of the people.
    Yes, I think a remote voting system is doable, but that is 
not the real question. The real question should be is it 
desirable. I submit it is not desirable. It is highly 
undesirable if you wish to retain a deliberative system as 
opposed to moving towards a more plebiscitary system where you 
are simply reacting to the public polls and moods and whims 
instead of coming together to really think through and talk 
together about how to solve our problems.
    Moreover, I suggest that remote voting could well be 
unconstitutional. I am not a constitutional lawyer or scholar, 
but just looking at the Constitution you see that Congress must 
assemble at least once every year; that to conduct business 
there must be an actual majority present. A quorum is a 
majority of Members coming together. So in my written statement 
instead of suggesting ways in which to amend the Constitution 
or whatever, I am suggesting some ways in which to reconstitute 
the Congress in a constitutional manner, and without 
elaborating on those items, I will simply list them for you in 
concluding my statement.
    First I think this committee should exercise its 
jurisdiction to consider an amendment to the election law now 
by requiring that Governors call for expedited special 
elections to fill these vacancies within 60 days if more than 
half the membership of Congress is lost in some catastrophic 
event.
    Second, I think House rules should be amended so that you 
can deal with the quorum problems that will occur if you have a 
large number of incapacitated Members. I think there is a way 
you can do this.
    Third, I suggest that there be an Office of Deputy Clerk 
created located away from the seat of government, preferably 
close to the shadow Cabinet, preferably close to some 
counterpart staff from the Senate so that that Deputy Clerk can 
help to reconvene the Congress as soon as possible after 
Washington has been vacated.
    After that--I missed a page here. Further, the current law 
that permits the President to convene Congress away from the 
Capitol in the event of contagious sickness or extraordinary 
circumstance should be amended to allow the officers of the 
House and Senate to do so as well.
    Fifth, appropriate rules, statutory changes and plans 
should be adopted to allow for Congress to meet in two places 
at once using teleconferencing in the event that the Capitol is 
quarantined with large number of Members both inside Washington 
and outside Washington.
    Sixth, the leadership of both parties in both Houses should 
designate a number of Members to be outside the Capitol during 
any joint session of Congress such as the State of Union 
Address, such as the President now designates a Cabinet member 
to be away.
    Seventh, steps should be taken to ensure full access to 
current computerized congressional databases and information as 
well as for broadcast coverage of the proceedings of Congress 
should Congress have to convene elsewhere, and this means 
public access.
    And eighth, every House and Senate committee and support 
officer should devise contingency plans now for carrying on its 
functions elsewhere even if all the staff of that committee or 
that office are killed in a catastrophic event.
    These contingency plans, I think, will go a very long way 
to helping flesh out how best to spend the emergency monies 
that Speaker Hastert has asked for to ensure the continuity of 
Congress elsewhere in emergency situations.
    In conclusion, Mr. Chairman, I commend you and your 
committee on thinking about and planning for the unthinkable. 
You did an outstanding job post-9/11 and in the ensuing anthrax 
crisis the following month in equipping Members and key staff 
with electronic devices necessary to communicate, to 
coordinate, and eventually for Congress to come together and to 
resume its business. That, it seems to me, is the most 
important and vital function for these information and 
communications technologies, that they can provide in a time of 
crisis this type of coming together, but they cannot serve as a 
substitute for deliberative lawmaking.
    Thank you for your consideration of my testimony and my 
recommendations, and I will be happy to answer any questions 
when the other witnesses have finished, if that is the way you 
would like to proceed.
    [The statement of Mr. Wolfensberger follows:]

                  Statement of Donald R. Wolfensberger

    Mr. Chairman and Members of the Committee.
    I appreciate this opportunity to testify before you today on the 
prospects, problems, and alternatives for carrying on the work of 
Congress in the event our Capital is the subject of a catastrophic 
event that leaves large numbers of Members of Congress dead or 
incapacitated and renders Washington, D.C. unsafe as the seat of 
government. Specifically, you are asking whether some form of e-
Congress might be a viable alternative to our two-centuries-old 
tradition of assembling as a single body, in a single location, to 
deliberate and vote on the people's business in the sunlight of public 
scrutiny and accountability.
    If it seems to you that my previous sentence is loaded with value-
laden terms and phrases, you are absolutely correct: I believe in 
tipping my hand early--especially if my time is limited. And in this 
instance, I want to weigh-in heavily on the side of reconstituting 
Congress in a constitutional manner. To me that means reconvening 
Congress as soon as possible, at a new site, with elected 
representatives of the people, assembled in a collective manner to 
deliberate. And by deliberation I mean a reasoning together about the 
nature of a problem and alternative solutions, and, out of that 
process, the arriving at a mutually agreed upon policy consensus. If 
there were still any doubts as to where I am coming from, I could 
recommend reading my book, Congress and the People: Deliberative 
Democracy on Trial--but that might sound too much like a plug.
    We should keep in mind, first and foremost, that Congress literally 
means ``a coming together,'' and if you lose that you will lose the 
very essence of our representative and deliberative democracy. The 
worst mistake you could make is to start at the wrong end of the 
reassembly process and work back, that is, to begin with what may be 
the most convenient, safe, and secure arrangement for individual 
Members of Congress, such as permitting their committee and floor votes 
to be cast from remote computer stations in their districts. Instead, 
you must begin with what is in the best interests of the institution of 
Congress and the American people which it serves and represents.
    To me, the very phrase, ``convening an e-congress'' is an oxymoron 
because you cannot have coming together of what the Framers intended to 
be a deliberative body of Members if they are sitting at 435 voting 
stations scattered across the country. The idea of building a computer 
system on which Members could not only access floor or committee 
debates, but actually vote on pending questions, will lead to what I 
would call ``a reverse Field of Dreams scenario.'' You will recall in 
the movie, Field of Dreams, the Kevin Kostner character was advised by 
a voice about how to proceed on his dream of a baseball stadium. 
``Build it, and they will come,'' the voice intoned. A remote voting 
system will have the opposite effect for the actual Congress: ``Build 
it, and they will stay away.'' We've already had an experience with 
that when we had proxy voting in House committees: it tended to 
encourage absenteeism.
    American Express can say of its card, ``Don't leave home without 
it.'' Give Members a remote voting card, and its motto soon will be, 
``Don't leave home if you have it.'' We might as well rename this body 
the ``Houses of Representatives.''
    In a way the current rules and practices of the House are 
responsible for this mentality that legislating only means voting. 
Every Monday and Tuesday you roll and cluster votes on suspension bills 
which now account for 75 percent of all laws enacted. You postpone and 
cluster votes on floor amendments, in the rare instances in which 
amendments are allowed. You can only force a quorum call when a vote is 
pending. It's little wonder that some Members continue to pressure for 
a rule change that will allow them to do the same thing in committee, 
that is, show up at the end of the day to vote on all the amendments 
offered in markup during the course of the day.
    The more that legislating in committee and on the floor is reduced 
in the minds of members to voting, the more you will become a 
plebiscitary rather than a deliberative body. If that happens, it wont' 
be long before the people decide they can cut-out the middle man, you, 
and cast votes themselves on pending Federal legislation.
    Before I proceed further, however, I want to commend this committee 
on the extraordinary work it and its staff did under very difficult 
circumstances in the immediate aftermath of September 11th as well as 
in the subsequent anthrax crisis the following month. Had it not been 
for the speed and flexibility of your decisions and actions in 
equipping Members and key staff with adequate electronic equipment to 
enable them to communicate and coordinate with their office staff, 
their party leaders, and their committees, Congress would have been 
hopelessly adrift for weeks rather than days. But ultimately, those 
electronic devices were used to facilitate a coming together to do the 
business of the Congress.
    That is how I view the utility of our information age 
technologies--as a tool for accessing information and communicating 
with others. These wonderful new technologies, however, should not be 
viewed, in my opinion, as a substitute for the face-to-face 
deliberative process. Your cannot have a genuine exchange of opinions 
and arguments in a cyberspace chat room; and your cannot develop 
compromises and consensus by spamming your colleagues via e-mail, no 
matter how persuasive you may think your arguments are.
    The question to me is not whether an e-Congress is doable. The 
techies will tell you it is, and I suspect they will eventually be able 
to devise a secure way to make it so. The question, rather, is whether 
it is desirable. To me, obviously, it is highly undesirable, for it is 
contrary to everything our constitutional system is about. In that 
regard, I would suggest that, if the committee should consider 
providing for an e-Congress in the sense discussed above, it would 
require a constitutional amendment. Article I, section 4 (as modified 
by the 20th Amendment) requires each House to assemble at least once a 
year, and section 5 requires a majority of each House to constitute a 
quorum to do business. It is counterintuitive to think that a majority 
of members in a disassembled House, voting remotely from their 
districts, could count as a quorum for doing business.
    In the time remaining, let me offer some suggestions on what does 
need to be done if, in extraordinary circumstances, the Congress needs 
to be reconstituted in a constitutional way as expeditiously as 
possible.
    First, this Committee has jurisdiction over Federal election laws 
which should be amended to provide for expedited special elections. I 
have proposed that, in the event that over half the membership of the 
House are lost, the Governors of the states should be required by 
Federal law to schedule final elections to fill vacancies not later 
than sixty days after such determination is made.
    Second, I would propose that House Rules be changed to provide 
special procedures in such circumstances, including a two-thirds vote 
to declare vacancies for those seats in which the House determines 
members are incapacitated beyond likely recovery during that Congress; 
and second, a rule that would not count for quorum purposes those 
Members granted leave of absence for reason of temporary incapacity. (A 
summary and text of the first two proposals are appended to this 
statement)
    Third, I would propose that the House adopt a rule to create the 
Office of Deputy Clerk of the House to be elected at the beginning of 
each Congress, and that the deputy be located outside of the Nation's 
Capital, preferably in proximity to the ``shadow cabinet.'' In the 
event that the Speaker and Clerk are killed in an attack, and Congress 
cannot reassemble in Washington to elect a new Speaker, the Deputy 
Clerk would be responsible for calling the survivors together in a new 
location, and provide for and preside over the convening of the House 
until a new Speaker is elected. Obviously, the Senate should adopt a 
parallel rule providing for a Deputy Secretary, who would work together 
with the Deputy House Clerk and the ``shadow cabinet'' to ensure an 
orderly reconvening of Congress in a new location, and close 
coordination between the branches.
    Fourth, the law that now allows the President to convene Congress 
in a location other than the seat of government due to ``the prevalence 
of contagious sickness, or the existence of other circumstances'' (2 
U.S.C. 27), should be amended to allow for the Speaker and President 
Pro Tempore of the Senate, or, in the event of their death, the Clerk 
of the House, the Secretary of the Senate (or, if either have died, 
their deputies) to call for the convening of Congress in another 
location. Congress should not depend on a presidential proclamation to 
meet at another place in such extraordinary circumstances.
    Fifth, in a related contingency, appropriate rules, laws and plans 
should be adopted so that, in the event that the Capital is subject to 
a bio-terrorist attack requiring a quarantine of the city, and large 
numbers of members are both in the Capital and outside the Capital, 
Congress be permitted to conduct committee and floor sessions from two 
locations using teleconferencing.
    Sixth, I would propose that, just as the President designates a 
cabinet member to be away from the Capital during a joint session of 
Congress such as the State of the Union Address, House and Senate 
leaders should designate a small group of members from each House, 
reflecting party ratios in their respective houses, to be away from the 
Capital as well during such occasions.
    Seventh, provision should be made for a Congress that is convened 
away from the Capital to have access by computers to all of the 
information now available to it through THOMAS, CRS, CBO, the House and 
Senate web sites, GPO, and other sites containing information vital to 
the continuity and vitality of the lawmaking process. If Congress is 
relocated to another location in the U.S., it should not have to be 
dependent on servers located in Washington which may have been disabled 
due to a massive attack on the Capital.
    Moreover, every effort should be made for the public to have access 
to the same congressional web sites it now does. And, arrangements 
should be made with C-SPAN or an alternative broadcast facility in the 
new location to cover House and Senate floor proceedings for public 
viewing. It is more important than ever during such a crisis that the 
people can see what their government is doing and that Congress can 
perform its informing function through the Internet and broadcast media 
to ensure that public knowledge of and confidence in government is 
sustained.
    And, eighth, every committee of the House and Senate and every 
support office which is vital to the functioning of Congress should 
adopt a contingency plan for the resumption of their responsibilities 
away from the Capital, even if current employees do not survive an 
attack. This should not only include making information on the role and 
functioning of their offices available at the alternative location, but 
also identifying capable and experienced individuals now living away 
from Washington, who could be called upon to assist in resuming the 
functions of those offices.
    In conclusion, Mr. Chairman, I again commend you and your committee 
on beginning to think about and plan for the unthinkable. I likewise 
commend Speaker Hastert on calling for a contingency fund to allow such 
plans to go forward immediately. Obviously, he will need the assistance 
of committees like yours, the appropriators, and the various 
congressional support offices to flesh out how best this money should 
be spent. The contingency plans called for in my final recommendation 
could go a long way in helping to make that determination. I firmly 
believe that the Framers of our Constitution got it right from the 
start when they designed this amazingly resilient and dynamic system. 
It is now up to you and others to keep it right from the re-start in 
the event that Congress is substantially destroyed in a catastrophic 
occurrence.
    Thank you for your consideration of my testimony and suggestions. I 
will be happy to answer any questions.
    [Donald R. Wolfensberger is Director of the Congress Project at the 
Woodrow Wilson International Center for Scholars under the direction of 
former Representative Lee H. Hamilton (D-Ind.). He is a 28-year staff 
veteran of the House of Representatives, culminating as chief-of-staff 
of the House Rules Committee in the 104th Congress. He retired from the 
House in February, 1997. He is author of Congress and the People: 
Deliberative Democracy on Trial (Johns Hopkins University Press, 2000); 
``Can Congress Cope With IT? Deliberation and the Internet,'' in 
Congress and the Internet. James A. Thurber and Colton C. Campbell, 
editors (Prentice Hall, 2002, forthcoming); and, ``Congress and the 
Internet: Democracy's Uncertain Link,'' in Democracy and the Internet, 
Leslie David Simon, editor (Woodrow Wilson Center Press, 2002, 
forthcoming). The views expressed in this statement are those of the 
author alone and do not necessarily reflect the views of the Wilson 
Center's staff, fellows, trustees, advisory groups or organizations 
that provide financial support to the Center. The Woodrow Wilson Center 
is a nonprofit, nonpartisan organization supported by both public and 
private funds, and does not take positions on public policy issues.]

   Summary of Provisions of Statutory Alternative for Filling House 
Vacancies Under Extraordinary Circumstances (Amending 2 U.S.C., ch. 1, 
                                sec. 8)

    <bullet> Existing language in the law which leaves it to the states 
and territories to prescribe the time for holding special elections to 
fill vacancies in the House under ordinary circumstances is left 
unchanged.
    <bullet> Under the extraordinary circumstances in which vacancies 
in House exceed half the authorized membership, the executive authority 
of each affected state affected shall issue a writ of election to fill 
the vacancy not later than 60 days after the vacancy is declared, 
unless a regular election occurs during the period or within 30 days 
thereafter.
    <bullet> A vacancy by death or resignation can be declared either 
by the governor of the state or by the House (by adoption of a 
resolution), and, if both the House and governor declare a vacancy, the 
60 day time frame for the election to take place begins with the date 
on which the earlier such declaration is made.
    <bullet> The House may, by two-thirds vote, declare a vacancy by 
incapacity based on the request of the incapacitated member or on its 
own determination, based on competent medical authority that the member 
is unlikely to be able to carry out the trust and duties of office for 
the remainder of that term.
    <bullet> If the House finds that a member is temporarily 
incapacitated and likely at some future point during that term to be 
able to resume the trust and duties of office, the House shall adopt a 
resolution declaring temporary incapacity and authorizing a leave of 
absence (with compensation and benefits). During the period of absence 
the Representative shall not be counted as a Member of the House for 
purposes of a quorum.
    <bullet> A person declared temporarily incapacitated who resumes 
the duties of office shall be counted for the purposes of determining a 
quorum.
    <bullet> Any Representative named in a resolution declaring a 
vacancy or temporary incapacity shall not be counted for purposes of 
determining a quorum during consideration of that resolution.
    <bullet> The provisions affecting internal proceedings of the 
House, are enacted as part of its rule making authority; are considered 
rules of the House as they apply to the procedures to be followed 
during extraordinary circumstances; supersede other House rules only to 
the extent changes its rule at any time.

  A Statutory Approach To Filling House Vacancies Under Extraordinary 
                             Circumstances

    Title 2 U.S. Code (``The Congress''), Chapter 1 (``Election of 
Senators and Representatives''), section 8 (``Vacancies'') is amended 
to read as follows (with new language printed in italic):

SEC. 8. VACANCIES

    (a) The time for holding election in any State, District, or 
Territory for a Representative or Delegate to fill a vacancy, whether 
such vacancy is caused by a failure to elect at the time prescribed by 
law, or by the death, resignation, or incapacity of a person elected, 
may be prescribed by the laws of the several States and Territories 
respectively.
    (b)(1) Notwithstanding subsection (a), under extraordinary 
circumstances (as defined in paragraph 2(A)), the executive authority 
of any state in which a vacancy exits shall issue a writ of election to 
fill any such vacancy, with the election to take place not later than 
60 days after the vacancy is declared unless a regularly scheduled 
election for the office is to be held during such 60 day period or 
within 30 days thereafter.
    (2) For the purposes of this subsection only--
          (A) ``extraordinary circumstances'' shall be those in which 
        vacancies in the representation of the states in the House of 
        Representatives exceed half of the authorized membership of the 
        House;
          (B) a vacancy caused by death or resignation may be declared 
        by the executive authority of a state or by resolution of the 
        House, but the 60 day period in which an election shall take 
        place shall begin with the earliest such declaration made; and
          (C) a vacancy caused by incapacity may only be declared with 
        the concurrence of two thirds of the House either upon a 
        written request signed by the incapacitated Representative or 
        upon a determination by the House, based on competent medical 
        opinion, that the Representative is unlikely to regain the 
        ability to carry out the trust and duties of office during that 
        term.
          (3)(A) If a Representative is found to be temporarily 
        incapacitated and likely at some future point during that term 
        to regain the ability to carry out the trust and duties of 
        office, the House may declare by resolution that the 
        Representative is temporarily incapacitated and is granted a 
        leave of absence with full compensation and benefits.
          (B) A Representative granted a leave of absence by reason of 
        temporary incapacity under extraordinary circumstance shall not 
        be counted for purposes of determining a quorum during such 
        absence.
          (C) If a Representative who has been declared temporarily 
        incapacitated resumes the trust and duties of office, the leave 
        of absence shall be vacated and the Representative shall be 
        counted for the purposes of determining a quorum.
          (D) Any declaration by the House of Representative's 
        temporary incapacity shall not extend beyond the current term 
        of the Representative.
          (4) A Representative named in any resolution considered 
        pursuant to paragraphs (2) and (3) shall not be counted for 
        purposes of determining a quorum during consideration of that 
        resolution.
          (5) The provisions of paragraphs (2), (3), and (4), insofar 
        as they affect the internal proceedings of the House, are 
        enacted--
          (A) as an exercise of the rule-making power of the House and 
        as such are deemed a part of the rules of the House, but 
        applicable only to the procedures to be followed by the House 
        under extraordinary circumstances;
          (B) supersede other rules only to the extent they are 
        inconsistent therewith; and,
          (C) with full recognition of the constitutional right of the 
        House to change its rules at any time, in the same manner, and 
        to the same extent as in the case of any other rule of the 
        House.

    The Chairman. Before we go on, I want to note there is a 
group in the hearing room from Illinois, from Close Up. So we 
welcome you to the Capital.
    Mr. Wolfensberger. My home State.
    The Chairman. His home State. Welcome.
    We will move on to Dr. Frantzich, who is joining us from 
Prague.

                 STATEMENT OF STEPHEN FRANTZICH

    Mr. Frantzich. Thank you very much.
    To paraphrase Lincoln, the world will little note nor long 
remember what I say here, but they may remember what I do here 
this morning, because this is a real world test of one of the 
technologies that may be necessary if we go to an E-Congress. I 
am not really here to advocate or denigrate an E-Congress idea, 
but I would like to take a few steps to analyze it from a 
science perspective.
    As we heard a couple of times this morning, just because 
you can do something, there is no one that says you have to do 
it. There is a great deal of pressure when technology comes 
along to use it. The law of the instrument: Give a child a 
hammer, and the whole world becomes a nail. The kind of 
corollary to that is the law of the least appropriate target: 
You give a child a hammer, they will likely hit the vase rather 
than hit the piece of wood.
    So I think we have to be very careful in terms of how we 
apply these technologies, but after the events of September 
11th, we need some sort of a contingency plan if Congress is 
indispensable even for a short period of time and Members are 
dispersed to two or more places, perhaps some of these 
geographically superceding technologies that will allow it to 
operate.
    So let me begin with the assumption that we can solve the 
access problem, Members can get to places where the technology 
is there; that we can solve the security problem, that we know 
who these Members are and they are legitimate participants; and 
third, we want a deliberative Congress. So these are my 
assumptions.
    Let me raise four quick ideas, one about who can 
participate; second, what is the impact on deliberations; 
third, how do we maintain the official record; and fourth, 
choosing a technology.
    First of all, in terms of who can participate, on one level 
today Members of Congress can choose whether they are going to 
go to a committee hearing, choose whether they are going to 
vote on the floor. We know that no technology is going to be 
100 percent possible. We are going to have breakdowns. So if we 
are going to have Members of Congress either deliberating or 
voting, we are going to have to change the rules in such a way 
that allows for verification that their words got into the 
Record and their votes were correctly listed. That may mean we 
have to have a longer voting period. But then that has 
implications for strategy. What about Members who hold out 
their votes knowing there will be a delay? In my written 
testimony I try to point out some other scenarios where there 
may be problems of verifying votes even if we have a very 
redundant kind of system that guarantees access.
    Secondly, collectives of Members. We have been talking so 
far about what I call front-channel communication, Members of 
Congress communicating with each other. But there has to be 
back-channel communication in the Congress. Party offices have 
to communicate with each other. Special interest caucuses have 
to communicate. We have to make sure those are maintained if we 
have a remote Congress.
    Third, staff. It doesn't do much good to send Members of 
Congress remotely without their staff or some way to 
communicate securely with their staff. Staff is extremely 
important to Congress. We have to maintain that provision.
    And then finally the public. This is where I get a little 
more scared. Technology is a malleable tool. I can see two ends 
of a continuum. On one end we can have a very secure kind of 
system as Members hunker down in their voting terminals, 
whether they are individual terminals or four our five remote 
sites, very secure, very efficient, very accessible to the 
public. That might sound kind of appealing to be insulated in 
that way, but it doesn't do a great deal for representative 
democracy.
    On the other hand, I can see Members of Congress out there 
among their constituents kind of with their mobile phone 
picking up information and then voting on the basis of that. 
Very representative, but not very efficient.
    The kind of magic of Congress, the tradition of Congress is 
having Members of Congress serve as a filter for ideas. If we 
move to an E-Congress, we have to find a way to maintain that 
filter; that there is enough representation, but there also is 
enough efficiency.
    We also have to worry about who has access to the Members 
of Congress. If we allow some members of the public input in E-
Congress, we have to make sure we allow most of the public, 
most of realm of the public. We have to worry about who has 
access in technology and who doesn't.
    Secondly, very quickly, I have some concern about 
deliberative content. There are at least three kinds of 
vehicles which we may want to talk about later on. We can do 
video conferencing, like we are doing this morning. We could do 
some sort of chat rooms which are interactive. We could do some 
sort of bulletin boards. Each have their advantages and 
disadvantages, but they raise important procedural questions: 
Who is going to have the right to control those chat rooms, 
control who speaks and how they speak? And as someone mentioned 
before, there is the question of face-to-face communication and 
deliberation. We know in research and other realms that people 
are willing to say things and do things on e-mail that they 
would never do in face-to-face conversations. The U.S. Congress 
has been very concerned in recent years about levels of 
conflict, when they have increased levels of conflict, if the 
technology allows people to do things that they wouldn't 
otherwise do.
    Thirdly, we have to worry about the official record. The 
legal official record of the Congress is the Congressional 
Record. We allow people to revise and extend their remarks. So 
it is a written record. What happens when we have E-Record, 
which is a much more robust record? It may have visuals, it may 
have audio and all sorts of other things. How do we develop 
that record? How do we distribute it? Who will have access? 
When will they have access?
    Finally, I hope this committee as it looks at the these 
possibilities doesn't link their ideas to one particular 
technology. Today we think of the Internet. Ten years from now 
the Internet is going to be passe. There is going to be 
something else out there. There is going to be a new 
technology, maybe a combination of current technologies. So I 
think what the committee has to think about is what are the 
functionalities that we want to worry about? Do we want to have 
different functionalities of technology as opposed to specific 
technology?
    Finally, technologies don't impact on institutions like two 
rudderless ships that collide at night. They are affected by 
the traditions of those institutions, and they are affected by 
the decisions of those institutions. I see this hearing as a 
way to strengthen the rudder of Congress as it looks at these 
new technologies, understand what lies ahead, and hopefully 
provide a much smoother trip into the world of new technology 
solving problems. Thank you.
    The Chairman. Thank you, Dr. Frantzich.
    [The statement of Mr. Frantzich follows:]

     Statement of Stephen Frantzich, Professor, U.S. Naval Academy

    The application of new technology is often a conflict between what 
is possible and what is desirable. Just because something can be done 
technologically does not mean it should be done. The ``Law of the 
instrument'' (often paraphrased as ``give a childe a hammer, and the 
whole world becomes a nail.'') creates tremendous pressure to apply new 
technologies simply because they exist. The ``Law of the least 
appropriate target (paraphrased as ``give a child a hammer and he will 
hit the glass vase rather than the nail'') suggests the common tendency 
to apply new technologies to the wrong situations.
    Prudent proponents of technological change need to recognize that 
the best applications of new technologies are demand driven. They must 
meet an evident need rather than simply represent the application of a 
new tool. The events of September 11th raise a real question as to 
whether the geographic concentration of the nation's top legislative 
leadership represents a real danger to the functioning of government 
and suggests considering ways to neutralize that danger and provide a 
contingency plan should face-to-face deliberation be impossible.
    A key characteristic of existing and emerging technologies is their 
ability to supercede geography. The telegraph, telephone, television, 
and fax machine all in their day provided similar advantages for 
particular formats. The advantage of the Internet is that it provides 
the potential for transmitting information in a variety of formats 
(audio, video, textual) simultaneously and with the potential for 
interactivity.
A. Should Congress Take Advantage of Geography Superceding Technologies 
        for Its Most Basic Collective Functions?
    The initial question is not one of technology, but one of 
philosophy and politics. Before exploring particular technologies we 
must face up to the question: ``Should Congress be allowed to meet 
remotely?'' If we assume the worst case scenario that Congress can not 
meet face-to-face anywhere, the question revolves around the 
consideration of what absolutely necessary functions of government must 
be maintained and can they be provided without congressional input? 
Clearly specific constitutional requirements and the desire for checks 
and balances suggest the danger of operating for significant periods of 
time without a functioning Congress.
    If Congress is indispensable, even for a short time, then an 
alternative must be found. It is assumed that any movement toward an e-
Congress would be a temporary solution to handle a very limited set of 
functions such as passing a budget, declaring war, or passing 
legislation to ameliorate the situation which brought on the crisis. If 
that question of whether we should consider an e-Congress is answered 
with at least a tentative ``possibly,'' the followingconsiderations 
should guide the final decision and the potential real technological 
applications.
B. Some Concerns About an E-Congress
    We will begin with the assumption that basic access and security 
issues can be satisfactorily solved to assure that all Members have the 
equipment and technological skill to participate and the validity of 
the legitimate participants can be assured.
            (1) Who Is Allowed To Participate?
    Individual Members: Not every Member of Congress participates in 
every committee meeting in which they are a legitimate member or in 
every floor debate. When Congress and its committees meet in their 
traditional ways, it is the individual Member who chooses whether to 
participate or not (and who must justify their decision to others). A 
danger of virtual meetings lies in the fact that accessibility to the 
necessary technology, equipment malfunctions, and user skills (or lack 
thereof) could deny some Members the right to participate even if they 
wished to. The danger expands in a terrorism scenario when the 
technology is likely to be disrupted. No technology will work 100% even 
under the best of conditions. For on-line deliberation, procedures 
would have to be determined for allowing Members to insert comments 
which technology malfunctions blocked. Much of this could be handled by 
minor changes in the ``revise and extend'' rules. More difficult would 
be how to handle the assertion ``that if only I had been able to make 
my point the result would be different.'' It is impossible to ``unring 
the bell'' (or more precisely insert the ringing bell in a completed 
sequence.) Redundancy should in all but the most dire situations (a 
complete disruption of all telecommunications) provide enough 
alternative ways to assure participation.
    A related question is when an e-Congress would meet. While the 
technology would allow (and perhaps even encourage) a 7/24/365 
continuous meeting schedule, personal convenience and the need for time 
to reflect suggests clear decision rules on meeting times. The concern 
is exacerbated by the fact that the events that would lead to an e-
Congress would be so disturbing that there would be pressure for 
immediate action. There is a danger that the choice of meeting times 
would be used even more strategically than today to deal in or deal out 
certain types of members (based on time zones or conflicting committee 
meeting schedules). Using the technology to ease the pressure of time 
by keeping the voting terminals (or the opportunity to enter the 
debate) open raises another set of questions about pressuring Members 
to change votes or to ``correct'' statements.
    For voting remotely, the technology would need to provide immediate 
user feedback on if and how their vote was recorded. Redundancy of 
input would not be enough. The importance of the vote in congressional 
procedures is so great that absolute verification would be a minimum 
requirement. It is a realistic assumption that the system would not 
work 100% of the time. An acceptable decision rule would have to be 
established for defining legitimate victory margins for votes and the 
time allowed to challenge a vote. It makes sense that if the winning 
margin is less than the number of Members claiming technological 
difficulties or without access, the vote would have to be redone. This 
raises the issue of strategically withholding votes (and claiming 
technological difficulties) and the potential for drawn out wrangles 
over the legitimacy of decisions. It would also be necessary to 
formulate rules about changing votes since the current 15 minute rules 
for vote duration (in the House) would probably not apply to remote 
voting.
    Collectives of Members: It is only individual Members who 
participate in the deliberation process. Remote deliberation would 
require the capability of party and special interest caucuses within 
Congress to meet and in some cases cast formal votes. Party leaders are 
dependent on ``back channel'' communications with colleagues before and 
during votes. The power of persuasion is typically dependent on 
proximity and the ability to transmit decision-driving information. To 
the degree that party and interest group leaders lose proximity and the 
ability to transmit information, they become irrelevant in the 
congressional process. The technology would have to allow for secure 
back channel communications between individual Members and between 
leaders and groups of followers.
    Staff: Currently Members of Congress depend heavily on their staffs 
for information and guidance. An e-Congress would need to develop 
capabilities for staff input, especially if a Member and his or her 
staff are physically separated. A secure system for Member input would 
have to be matched with a secure system for staff to Member (and Member 
to staff) communications. Sending Members off to secure locations cut 
off from their staff would to little to improve decision-making.
    The Public: Current congressional procedures allow input from a 
variety of individuals and groups in the form of direct communications 
with Members and formal testimony. Remote deliberation technology 
should not isolate Members from such input, nor skew the composition of 
those with the capability to participate.
    Existing technologies invite two alternative images. At one extreme 
we could guarantee security and efficiency at the cost of public input. 
At the other extreme we could guarantee responsiveness at the cost of 
limited security and reduced efficiency.
    On the one hand we can imagine fearful Members in their secure 
electronic voting bunker guiding the nation's future. The image of the 
Member hunkering down with their remote terminal ready to make key 
voting decisions while isolated from constituents and organized 
interest groups may at times sound appealing, but would vitiate 
Congress role as a representative institution. Such a scenario would 
encourage individualism and members acting at best as ``trustees'' for 
constituents, looking out for their presumed interests, but isolated 
from their input. Even in times of crisis, the public has a right to 
participate.
    At the other extreme the technology could be used to dispatch 
Members out into the field to collect and transmit public desires 
faster and more accurately then when they are filtered by staff and 
tempered by the passage of time. The image of five hundred and thirty-
five ``electronic voting booths'', each manned by an elected official 
on a``field telephone'' would lead to increased localism and an extreme 
case of the Member serving as a ``tribune,'' simply recording the 
public mood and passing it on. Security, efficiency and protection from 
irresponsible policy would be continuing problems in such a scenario.
    While the technology could support either of the extremes, the 
legacy of two-hundred years with the existing Congress has been its 
ability to find a balance between the two extremes, allowing public 
input, but tempering it with judgment. An e-Congress would have to find 
a way to maintain that balance.
    Any scenario allowing some public input, must also guarantee the 
breadth of public input. To the degree that electronic communications 
become the coin of the realm in an e-Congress, more options for 
subsidized options for public input and more sophisticated ways of 
evaluating such input will be necessary.
            (2) Some Concerns About Deliberation Content
    It is assumed that the operation of an e-Congress would involve, at 
a minimum, an interactive chat room (or bulletin board) equivalent of 
floor debate, managed largely in the same way as current debate by 
floor leaders. Who would allocate the order of ``speaking'' and perhaps 
the length of comments? If the technology were to involve a real-time 
chat room or video-conferencing, the debate would look much more like 
current floor debate since only one person could speak at a time and 
some semblance of argument order would be retained. A bulletin board 
approach would increase flexibility, but its ``threads'' would be less 
coherent and arguments much more easily lost.
    Another concern is that it is widely assumed and supported by 
research that face-to-face communications tend to be more temperate 
than that which occurs on-line. People say things in e-mails they would 
never say to someone personally. With the concerns over comity and 
collegiality in Congress, an e-Congress could exacerbate conflict. New 
applications of formal rules and new informal norms of behavior would 
probably be necessary.
            (3) How Will Official Records Be Accessed and Maintained?
    Collecting, editing and archiving the records of an e-Congress 
would be a challenge, depending on the technology in use. The existing 
technologies allow audio, video and text. It is unclear how these would 
be stored to provide an accurate, integrated record of what went on in 
the deliberation process. The courts have ruled that legislative intent 
derives from the written Congressional Record, which is an 
intentionally edited version of reality reflecting what Members wished 
they had said. An e-Congress could encourage the retention of a more 
robust record including material in a variety of formats. While such a 
record would give a better feel for the decision input, the challenge 
of maintaining such records (and the equipment necessary to access 
them) will increase the cost and complexity of archiving.
    A related question is who will have access and under what time 
schedule? Real time access to digitized records would empower 
technologically sophisticated citizens (and collectives of citizens in 
interest groups), but could increase the gap between citizens in the 
know and citizens in the dark about congressional activity. Since 
congressional records go through a variety of transfigurations (drafts, 
amended proposals, ``revisions and extensions'' of remarks, etc.), the 
record at any one point in time is a snapshot of a moving picture. In 
an e-Congress with public access materials, the definition of ``the'' 
official record would have to be carefully defined and explicated.
            (4) Determining the Technology
    If a plan is developed for an e-Congress, it is important not to 
tie legislation, proposed rules, or contingency plans to a particular 
technology. What we call the Internet today will in ten years seem as 
outdated as 8-track tapes and video disks. We don't know what the next 
wave of technology will be called or what its capabilities will be. The 
rationale for proposed applications should be based on functionalities 
nor exiting tools. The designers of applications would have to ask, 
What types of information would need to be transmitted (is audio alone 
enough? What about video and text?) What are the minimum requirements 
to allow Congress to perform its most important functions?
C. The E-Congress Journey
    None of the above are `'killer'' concerns making an e-Congress 
impossible or undesirable to implement. They simply raise questions 
that need to be faced. Technologies do not impact on social 
institutions like two rudderless ships colliding at night. Applications 
are filtered through the traditions and procedures of the existing 
institutions and can be steered by careful planning. The exciting part 
of this hearing lies in strengthening Congress' rudder for guiding it 
through the exciting, but dangerous shoals of designing a viable 
alternative for dangerous times. If Congress is going to launch itself 
on the journey toward an e-Congress, it is wise to consider what it is 
likely to encounter along the way.
                     notes for frantzich testimony
    1. Professor Frantzich wrote the first book about Congress's use of 
new technology (Computers in Congress: The Politics of Information, 
1979) as well as numerous other more recent books, articles, and 
reports for Congress and various think tanks on the impact of 
technology on political institutions. This semester he is serving as a 
senior Fulbright Scholar in the Czech Republic. He can be contacted at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7610041718020c1f1536030518175813120358">[email&#160;protected]</a>
    2. The debate over whether a remote meeting would meet the 
constitutional requirement of Congress ``convening'' are reminiscent of 
the debates a decade ago over whether the electronic versions of 
congressional outputs were really ``documents.'' Today it is hard to 
believe the intensity of the battle and that participants could not (or 
would not) readily agree that it was content, not format that defined 
congressional outputs as documents. The idea of ``convening'' at its 
heart implies joining together to take action. That function does not 
require physical proximity.

    The Chairman. Next Dr. Ornstein.

                STATEMENT OF NORMAN J. ORNSTEIN

    Mr. Ornstein. Thank you, Mr. Chairman, Mr. Hoyer, Mr. 
Linder and Mr. Doolittle. I appreciate the opportunity to 
testify. I want to commend you very much for your leadership to 
ensure the continuity of Congress after some kind of emergency 
or catastrophe for this hearing as well as your efforts to 
improve the security of the Capitol, secure alternative meeting 
sites and develop emergency communications channels. It is all 
a testament to your seriousness of purpose.
    I also want to take the opportunity to commend particularly 
you and Mr. Hoyer for your constructive bipartisanship on 
election reform, which has really been a model, I think, to how 
this institution can and should work, and it is going to be 
very good for the country as well.
    To get back to something you said at the beginning, Mr. 
Chairman, I think it is impossible to underscore enough the 
importance to this country after September 11th of having 
Congress here and operating, not only in making important laws 
authorizing the use of military force, appropriating money for 
emergency purposes and so on, but just the symbol, as I have 
discussed this issue with some of your colleagues, and the need 
to make sure that under every possible scenario we can have a 
Congress up and acting quickly, and it is especially important 
after some kind of a national catastrophe.
    Some have reacted by saying, what is the big deal? If we 
had a period of, in effect, benign martial law for a short 
period of time with an executive running things, no great 
disaster. I disagree. I think we have to take every step to 
make sure that in every worst-case scenario we have a plan in 
place, and one that will have not just a Congress, not just one 
that might have three Members of the House which somehow we can 
manipulate to make into a quorum, but one that has the 
representative nature that this body represents across the 
country.
    Just a few initial comments. A year or so ago I was down at 
the Greenbrier, and I made the tourist trip into the bunker. It 
was quite extraordinary to see the elaborate preparations that 
we had made in the event of a catastrophe during the Cold War. 
But it also becomes clear that we made all of these elaborate 
plans based on a model.
    The model was that missiles would be lobbed from Siberia 
and we would have an hour or an hour and a half to get 
everybody together and take them 200 miles away. We now face 
obviously a very, very different kind or series of threats. On 
September 11, that morning I was out at Dulles Airport, I got 
called back from the jetway when they canceled all the flights, 
and I saw the chaos that we had here.
    I then reflected very soon thereafter on the reality that 
if that flight had taken off on time--now, it was a United 
flight so admittedly the odds were not great, but if it had 
taken off on time, those passengers would not have known that 
they were headed on a suicide mission, and the odds are it 
would have headed for the greatest symbol of American 
democracy, which is this Capitol dome. If it had hit and the 
jet fuel had exploded, as it did at these other sites, we might 
very well have had half the Members of the House killed and the 
other half in burn units, possibly for weeks or months--no 
quorum, no Congress, no ability to function. That, along with 
other scenarios, underscored for me on September 12 the 
importance of doing something; and I have been working on this 
set of issues ever since.
    I want to commend my colleague Don Wolfsenberger. I 
actually convened a working group soon after those events to 
look at different opportunities, and he has come up with some 
extraordinarily constructive proposals that involve changes in 
the rules and, in some instances, changes in law. I don't think 
that is enough, frankly, given the possible scenarios, 
including a smallpox attack, quarantine strategies.
    So we have got to think about alternatives when we can't 
convene in one place, when we can't have all the Members 
together, but also frankly when we might not, under existing 
rules, be able to convene a quorum even if we accept the 
Parliamentarian's interpretations that have been in existence 
since the Civil War that a quorum is not half of all the 
Members but half of all the living Members.
    There are just too many scenarios where we could have large 
numbers of people either incapacitated or unable to gather 
together to make other things important. That gets to the 
jurisdiction of the committee and the subject of today.
    Let me also stress that I believe it requires--and I 
believe reluctantly, because I don't favor any constitutional 
amendments as a general rule--that we really are going to have 
to look at the possibility of something to provide for 
temporary memberships, especially under so many of these 
scenarios in this terrorist age where incapacitation may be a 
greater threat than destruction or death of all of the Members. 
That is true for the House and the Senate.
    While we might be able to deal with it in a stopgap way by 
redefining a quorum to take the incapacitated Members out of 
it, I just don't want to have a period of time when we might 
have six or eight or ten Members of the House who might all be 
Members of one State's delegation, for example, who just 
happened to be away making these important decisions.
    I think we have to find ways to convene the Congress in the 
most robust fashion.
    I commend, obviously, Mr. Langevin and Mr. Baird who seized 
on these issues right from the beginning. There is one area of 
Mr. Langevin's bill and testimony that I think is especially 
important for us to grapple with, and it struck me also on 
September 11 with the absurdity at the Pentagon that people 
from different rescue teams couldn't communicate with one 
another.
    We have clearly a terrible problem: It is a larger spectrum 
problem with emergency communications. The cell phone system 
froze, and we have people from different areas and almost any 
kind of a tragedy certainly, as we know in the Washington area, 
is going to involve Montgomery County and, very possibly, 
Prince George's County in Maryland, that will involve Fairfax 
and other counties in Virginia. If they can't communicate with 
one another, and they might all end up convening in the 
Capitol, we have got a terrible problem.
    And if Members of Congress are using cell phones or are 
using BlackBerries, but they are all part of a larger system 
that simply can't handle the traffic, then we are going to have 
a crisis. So we have got to find secure and dedicated means of 
communication, and communication especially, as Mr. Langevin 
says, to start with, to make sure that we know where Members of 
Congress are and whether they are alive and able to 
communicate.
    Think of the chaos at the World Trade Center and the 
Pentagon where we didn't know who was there. We still don't 
know exactly who was there. We didn't know who was alive or who 
wasn't alive. If we had rubble around, we could have a 
situation where we simply wouldn't have any idea. At the same 
time, even as you think about the notion of convening an E-
Congress--and I associate myself strongly with the remarks of 
Mr. Dreier and of Don Wolfsenberger about the undesirability of 
doing such things except under the most dire of circumstances, 
and I want to recount for you a conversation, just something I 
mentioned to Mr. Linder before we started.
    Several years back, my friend and yours, John Kasich, 
called me up, very excited--though I suppose it is redundant to 
say ``very excited''--and said, ``I've got a great idea, Norm. 
What do you think about it? Now that we've got electronic 
voting, why don't we just vote from our offices and vote from 
our districts and we wouldn't have to deal with all of these 
hassles.''
    I said, ``Please carve out a couple of hours so I come in 
and persuade you as to why that's an awful idea. But I am 
afraid many of your colleagues would jump at the notion of 
having the convenience of being able to do their business from 
back home, or do their business from somewhere else, or avoid 
all of the hassles that are involved in coming to Washington, 
going back and forth to vote and so on.''
    And this is going to become a bigger problem because, as 
Steve Frantzich suggests, the technology is moving at a rapid 
pace. It's probably going to be only a matter of 3 or 4 or 5 
years before we have holographic images replacing even the 
videoconferencing; and the drumbeat from outside and inside to 
take these technological tools and telecommute, in effect, will 
be very, very strong. So we have to build in not just a set of 
regular safeguards, but fire wall upon fire wall upon fire wall 
to make sure that if, under the most dire of circumstances, you 
need to have the ability for just a short period of time, 
perhaps even to declare war, and you are scattered or you are 
quarantined and you can't convene at any individual place, that 
it is absolutely limited to that.
    That means, among other things, that we have to consider 
what threshold triggers such an emergency, who decides when 
that threshold is met; and especially under a set of 
circumstances where the leaders might not be available, might 
not be alive or might not be able to communicate with others. 
This requires a good deal of thought and effort.
    All of that, including how you would change the rules to 
make this possible, whether indeed it is constitutional--and I 
think, with Don, that this is of dubious constitutionality, if 
we actually have an E-Congress, throwing out all of the norms 
and the framers' ideas of what a deliberative body is, to vote 
and to do the other people's business. But even if we do, we 
have got to work through all kinds of nuances.
    Let me note that very shortly the American Enterprise 
Institute and the Brookings Institution will put together a 
blue ribbon commission to deal with the issues of the 
continuity of governance that includes the Congress, the 
Supreme Court and presidential succession to try to work 
through some of these issues. We are available, as I am 
individually, as Don and Steve and the others are, to assist 
you in your part of the task.
    I hope, as well, that you will all engage more broadly in 
the larger set of issues beyond the jurisdiction of the 
committee to deal with all of these scenarios, which we know 
range from a suitcase nuclear bomb that, with no notice, could 
take out a good part of official Washington to an anthrax or a 
smallpox attack that could eliminate a lot of people, create 
chaos or quarantine large numbers of people, to a kind of 
attack that could put people in burn units and make them 
incapacitated for months.
    You can't remove them from office, but you want to have a 
robust membership of the body; and of course, as we have 
suggested, to a set of circumstances where Members are 
scattered and may not be able to travel.
    Thank you very much.
    [The statement of Mr. Ornstein follows:]

 Testimony of Norman J. Ornstein, Resident Scholar American Enterprise 
                               Institute

    Mr. Chairman and Members of the Committee:
    I commend you for your leadership in ensuring the continuity of 
Congress after a catastrophic attack. This hearing, as well as your 
efforts to improve the security of the Capitol, secure alternative 
meeting sites, and develop emergency communications channels, area 
testament to this committee's seriousness of purpose and the urgent 
task before it. I thank you for the invitation to testify before you 
today on the possibility of ``convening'' an e-congress with Members 
participating from remote locations. While I strongly support the use 
of technology to facilitate remote communication and to preserve and 
provide access to information vital for the functioning of Congress, an 
e-Congress is not a substitute for the real thing. Communications and 
voting from remote locations will not allow for the face-to-face 
contact that makes you true ``representatives'' of the people and that 
makes Congress the greatest deliberative body in the world.
    One can imagine a number of scenarios where it might be difficult 
to convene Congress in the traditional sense. There is the possibility 
of a biological attack with many members quarantined and unable to come 
together for fear of spreading a dangerous infection. Chemical or 
conventional attacks might leave many members in hospital beds, 
mentally aware, but unable to meet at a central location. An attack on 
the Capitol building while members were in their home districts might 
destroy the meeting place, and leave members scattered across the 
country, unable to travel to Washington or another central location. 
After September 11th, all of these scenarios seem possible. It is for 
this reason that I strongly support your efforts to secure alternative 
meeting places in the Washington area and elsewhere, and to provide 
members with secure communications equipment so that they might be in 
touch shortly after an attack.
    But I stop short of endorsing an e-Congress, defined as members 
situated in multiple locations debating, voting, conducting hearings 
and markups and doing other official business by email, webcast, or 
telephone. Under such a procedure, you as members would not be acting 
as representatives in the essential meaning of the term.
    Members of Congress must represent the interests of their 
constituents while simultaneously interacting with other members to 
reconcile interests from throughout the country--all to fashion policy 
that promotes the public good. Both sides of this equation are 
essential to true representation. That is why members lead ``double 
lives,'' spending significant time both among constituents and in the 
halls of Congress. No matter how advanced the technology, there is no 
substitute for the face-to-face conversations and informal interactions 
between members that can build goodwill across party and region, and 
that are critical to genuine institutional and individual deliberation. 
Likewise, relationships among staff and advocacy by interest groups are 
important for the legislative process and would suffer dramatically if 
they were conducted remotely rather than face-to-face.
    These relationships have the effect of knitting together the 
Congress and passing legislation that is broadly acceptable to the 
country as a whole. You are not merely 435 autonomous individuals; you 
are also important parts of a larger institution. I know of no major 
piece of legislation that could (or should) have been passed without 
such personal contact. And I cannot envision a bill of even modest 
complexity being drafted and voted on by members whose basic contact to 
the outside world was a phone or email address.
    It is critical for Congress to consider every dire circumstance 
that could result from a catastrophic attack on official Washington. 
That includes circumstances under which members of Congress are 
scattered around the country and unable to travel to convene in 
Washington or elsewhere. I commend especially Representative Langevin 
for focusing on this problem and grappling with a solution. But I 
frankly fear a solution that provides an imprimatur to a remotely-
driven e-Congress that would too easily slide into use in non-
emergencies. Emergency preparations for video conferencing a session of 
Congress are worth serious consideration and planning. But even to 
consider that alternative is a risk--it must not be done without 
ironclad assurances that no such plan could take place except for a 
very short period of time under a dire emergency. Never forget that the 
precedent set by an e-Congress might undermine the intrinsic 
deliberative nature of Congress and its regular workings by encouraging 
more indirect forms of legislating.
                       the continuity of congress
    What is most urgent for this body to consider is how to make sure 
that the Congress has adequate membership to operate after an attack. 
We must plan for alternative meeting sites and alternative methods of 
meeting and voting. But it is even more important to ensure that there 
would be enough members for Congress to operate at all. It is for this 
reason that I have joined with Rep. Baird and others inside and outside 
Congress to advocate measures to ensure that Congress can continue to 
operate as a constitutional body.
    There are two basic problems: the constitutional quorum 
requirement, and the possible incapacity of many members of Congress in 
a catastrophe. As Don Wolfensberger suggests, it might be possible to 
change the rules and redefine the quorum to exclude temporarily 
incapacitated members. But I do not believe that such a change would 
deal adequately with the problem. If 200 members of the House were 
killed and an additional 230 incapacitated by an attack, one might 
manipulate the rules to allow the remaining five members to serve as 
the House, with three constituting a quorum. Do we really want to have 
three members of the House acting to authorize the use of military 
force, appropriate funds for disaster relief or defense, or alter 
constitutional guarantees of due process to deal with a continuing 
terrorist threat?
    Thus, while I support Congress taking immediate, interim steps 
through enactment of laws and changes in rules to minimize the threat 
to governance we now face with contemporary terrorism, I have come 
reluctantly to the conclusion that a constitutional amendment is also 
appropriate and necessary. Congress needs to create a mechanism for 
temporary appointments to ensure its continued functioning in the event 
of a catastrophic act.
    Drafting an appropriate constitutional amendment, however, is not 
easy. Representative Brian Baird and Senator Arlen Specter have drafted 
slightly different versions of amendments to address these problems. 
Both take effect only when a significant fraction of the members of 
Congress have been killed or incapacitated. When such an event occurs, 
governors are required to appoint temporary replacements, who can serve 
until a special election is held.
    I favor the general outlines of such an approach, but I have 
crafted an alternative amendment that differs in several significant 
ways. My amendment is triggered when a majority of governors determine 
that a majority of their state's delegation is either dead or 
incapacitated. In the case of a vacancy caused by death, governors 
would appoint temporary members to serve until a special election is 
held. In the case of incapacitated members, governors would appoint a 
temporary representative who would serve until the member recovers, 
dies, or until the next general election. In both cases, governors 
would appoint a replacement from a list of seven potential successors 
drawn up by each individual member.
    There are several advantages to this approach. First, it 
decentralizes the trigger mechanism and moves it out of Washington, an 
important consideration if our capital is the target of an attack. 
Second, because twenty-six governors would have to make a similar 
determination, it removes the power to trigger temporary appointments 
from one hand and ensures that no abuse of power for political or other 
purposes can occur. Third, it makes it clear that any member who is 
incapacitated and recovers can resume his or her seat immediately. 
Fourth, it deals with the problem of governors appointing temporary 
members who are antagonistic to the views of the deceased or 
incapacitated member by requiring the governor to appoint from a list 
of successors designated by the individual member. A number of states 
have emergency procedures to this effect. I have attached a copy of an 
amendment along these lines.
    Fortunately, a growing number of people are focusing attention 
around the continuity of Congress. In January, I convened a working 
group of constitutional, congressional and legal scholars, including 
Don Wolfensberger, to discuss these issues and come up with a menu of 
alternatives. Not all agreed with my approach of a detailed 
constitutional amendment, but there was consensus that the question of 
the continuity of Congress was one of the most serious facing our 
republic. We have created a webpage that details many of the proposals, 
articles and opinion pages on the subject: www.aeipoliticalcorner.org/
continuity.htm.
    I am encouraged by the committee's attention to these difficult 
questions. I hope that the committee will continue to explore ways in 
which technology might assist the Congress in the aftermath of a 
terrorist attack, and that it will find answers short of a move to an 
e-Congress. And I hope that you will also consider measures to ensure 
the constitutional viability of Congress as an institution. We owe it 
to the victims of 9/11 and all Americans to keep our institutions 
strong in the face of those who would seek to destroy our way of life.

    The Chairman. I appreciate your testimony.
    I shared Lincoln County in Ohio with John Kasich; he had 
half the county. We talked about that idea of his, which I 
didn't support, but I did tell John a special exception, it 
would have been good to keep him back there and we come out 
here. You can tell John I said that.
    We will go on to the final witness, Dr. Thibadeau.

  STATEMENT OF ROBERT THIBADEAU, PH.D., DIRECTOR OF SECURITY 
   ARCHITECTURES, SEAGATE TECHNOLOGIES, INC., PITTSBURGH, PA

    Mr. Thibadeau. Mr. Chairman, members of the committee, 
thank you for the opportunity to testify before you today.
    The last time I was in Washington, I flew in on the same 
flight, September 11. I spent the afternoon walking--I was 
giving a talk at the J.W. Marriott. We were locked down the 
entire morning. I got to walk this whole area with nobody in 
it. Finally, the J.W. Marriott put me up, and I got to watch 
the Pentagon burn.
    In this statement I will enumerate the principal technical 
issues that arise in considering a distributed Congress. Any 
change to the way Congress functions can have risk, but change, 
as we know, is also inevitable.
    In considering how to conduct congressional operations in 
emergency situations, we should not look at available 
technologies first, because this is apt to create an awkward 
and perhaps unusable patchwork of solutions. The preferred 
approach is to analyze the deliberative and decision-making 
processes that we wish to achieve and then identify the 
necessary and sufficient technical means to achieve these ends.
    Can we define in precise terms the model of communications 
necessary for the Congress to deliberate and decide? The model 
needs to specify the ebb and flow of human interactions, the 
rules and timing of meetings and authority structures. It also 
needs to specify all the modalities of communication needed, 
including textual, documentary, audio and visual in the context 
where everyone finds the communication natural and appropriate.
    Suppose we resolved these structural issues. What about 
information security? For any communication we can measure 
security against six considerations. They are called integrity, 
privacy, authentication, authorization, audit and availability. 
For example, if we just consider the security of the 
communication between two Members of Congress, we can state, is 
the integrity of the communication preserved and not tampered 
with? Is the communication hidden from all those who are not 
authorized to receive it? Are the parties to the communication 
actually the people they pretend to be? Is this really this 
particular Member of Congress? Is this party to the 
communication authorized to be a party to the communication?
    This may not seem like much if we are talking about a 
communication between two Members, but what about authorizing 
all Republicans to a caucus, or all committee members to a 
meeting? Is there a record of the communication that can be 
consulted if a violation of security is suspected? Many of the 
most damaging attacks against security are covert attacks that 
are revealed through forensic analysis of logs and audits. Is 
the timeliness of the communication protected against denial of 
service attacks or even simply system failures?
    We can note that simply creating artificial delays can 
easily disrupt human communications. Message integrity, 
privacy, authentication, authorization, audit and availability 
need to be addressed for any part of the communication system, 
and the systems needed to achieve a viable user interface. So, 
for example, during a vote it is necessary to determine that 
all votes are correct, that they are anonymized or hidden when 
they need to be, as with voice votes; that they are coming from 
whom they seem to be coming from; that they are all authorized; 
that a record is kept in case of suspected security failure; 
and that the votes can be executed and completed in a timely 
fashion.
    There are other issues that I would term ``special 
issues.'' I will take a few of these in turn. How do we 
authenticate a Member of Congress? This turns out to be a very 
interesting problem. We may have a Congressman log in, we may 
use voice recognition or an iris scanner to identify that this 
is truly the Congressman.
    But we may need constant authentication. Suppose an 
attacker knocks the Congressman out after the Congressman logs 
in; now the attacker can pretend to be the Congressman. Since a 
Congressman can vote, how do we know when the Congressman is 
just absent versus when he has been incapacitated in a fashion 
that allows a secondary authority to vote in his stead? We need 
to both authenticate his constant presence and authenticate the 
nature of his absence.
    How does the public play a role? Clearly, even the Congress 
today is concerned about misuses of public access, access that 
can distort proven deliberative processes. How can the public 
have input if the Members and staff are at locations where 
physical access is not possible? This is an issue needing 
serious study.
    Finally, let us bring up perhaps one of the most 
interesting of the special issues. Compromising negotiation as 
often as not involves a clear understanding of emotional 
commitments. How do we carry the fair fight off the Hill and 
into a distributed framework? This special issue really 
represents but one of a family of special human issues that 
greatly facilitate the processes of Congress. It is here, I 
believe, that we are most likely to find alternate human 
strategies that are compatible with the technical 
infrastructure.
    There are many ways to signify that one is angry, for 
example. The ways one may use in daily person-to-person contact 
may be different from those employed on the Internet.
    This brings us in our analysis to the issue of whether we 
should seek perfect mimicry of congressional process or simply 
mimicry of the legislative and other results of a distributed 
Congress. We know that the only people who can judge the 
efficacy of a geographically distributed emergency system are 
the participants in it. Even after we think we have the 
technical issues resolved through such modeling and analysis as 
I have described, there should be the expectation of practice 
runs which will refine the process and eliminate the inevitable 
oversights and errors.
    This is my statement. I have tried to provide a simple 
method for enumerating the issues in developing a 
geographically distributed Congress that can nevertheless 
function as a Congress.
    I am available to take any questions. Thank you.
    [The statement of Mr. Thibadeau follows:]

      Statement of Robert Thibadeau, Ph.D., Director of Security 
        Architectures, Seagate Technologies, Inc., Pittsburg, PA

    The House of Representatives or other deliberative lawmaking bodies 
may find it important to function during times when the voting members 
and supporting staff are geographically distributed. The purpose of 
this statement is to try to identify the principal technical issues 
that need to be effectively addressed in order to enable distributed 
deliberation and decision by the entire congressional membership.
    The best approach to this problem is clearly not to look at 
available technologies first. If we look at communications technologies 
first we are apt to create an awkward, and perhaps unusable, patchwork 
of solutions. The preferred approach is to analyze the deliberative and 
decision-making processes that we wish to achieve, and then identify 
the necessary and sufficient technical means to achieve these ends. 
This brings us to the first issue:
    1. Should we attempt to mimic the deliberative and decision-making 
processes as they exist in the current congressional context, or should 
we develop a separate set of processes more suited to the circumstances 
of distributed action?
    There is no easy answer to this question. It is almost certainly 
true that if we make any physical change to the geographical context of 
congressional processes, the processes themselves will change. As a 
matter of practice, it will be impossible to perfectly mimic all forms 
of human interaction that take place in congress that can influence 
collective decision making. Trying to mimic may well be the wrong goal. 
A better goal may be to achieve outcomes that members feel comfortable 
would be the same outcomes achieved if the membership were meeting in 
normal congress. The telecommunications and computing tools needed to 
achieve this effect of natural outcomes may well not at all mimic the 
ways in which the membership interacts on congressional hill.
    However, there are certain basics of what it means to be in 
congress that allow us to confidently define other issues that will 
most certainly need to be addressed. So, let's just take the dictionary 
of congress as a ``formal assembly of representatives to discuss 
problems and legislate.'' This congress can be characterized 
scientifically as a dynamic matrix of communications among members, 
staff, and public. The communication is not constant, but ebbs and 
flows. A congress naturally incorporates provision for time to study 
and reflect, and for many kinds of special interactions in groups that 
precede the full congress assembled.
    For those of us who have had many years of daily experience with 
computers, the technology of chat, as may be found in the original 
Internet Relay Chat (IRC Chat), or AOL Instant Messenger, provides a 
natural way to permit members, staff, and public, to both publicly and 
privately deliberate. The Blackberry mobile email devices in use by 
many legislators also provides chat-like interactions among members, 
staff, and public. But, while Chat has many of the correct properties 
of congressional interactions, it is only for textual input and does 
not have easy means for audio-visual interactions. Chat may seem 
appropriate, but this is letting available technology drive our 
thinking about congressional processes. We can't really evaluate 
whether we want to change congressional processes until we can 
enumerate them. So, the second issue that we can identify is this:
    2. Can we define, in precise terms, the model of communications 
necessary for the congress to deliberate and decide?
    Clearly, this model of communications needs to describe the ebb and 
flow of private, semi-public, and public deliberations and decision-
making. It needs to specify rules, timing, meeting, and authority. It 
also needs to specify all modalities of communication needed including 
textual, documentary, audio, visual, and perhaps others (such as 
gestural) in a context where everyone finds the communication natural 
and appropriate.
    We know that there will be certain technical limits. For example, 
it would be impractical to have 435 live talking heads on a screen, 
first because that many talking heads cannot be put on a screen, second 
because it would lead to incomprehensible jabber, and third because the 
bandwidth limitations of our telecommunications infrastructure simply 
make 435 live talking heads impossible. Of course, it is possible to 
have all 435 Members on line simultaneously, just not in live video. 
This brings us to a third issue:
    3. Given a desirable model of communications, how do we technically 
accomplish this with a natural, transparent, user interface?
    So, we may, for instance, find that instead of 435 live talking 
heads, a given member of congress may choose to watch the Speaker's 
dais and follow one conversation at a time with only a few participants 
on screen at any given moment in time. Staff may track other events 
occurring in parallel or certain events may be stored for replay. 
Priority interrupts may be possible by senior members needing to 
intervene in the interest of timely decision making.
    Supposing that we resolved all these issues to congressional 
satisfaction, many other issues still remain. Many of these involve 
information security. There is a fairly well understood technology 
associated with security. Consider any given security problem, we can 
measure security against six considerations: integrity, privacy, 
authentication, authorization, audit, and availability. For example, if 
we consider the security of the communication between two members of 
congress, we uncover new issues:
    (a) Integrity: Is the integrity of the communication preserved and 
not tampered with?
    (b) Privacy: Is the communication hidden from all those who are not 
authorized to receive it?
    (c) Authentication: Are the parties to the communication actually 
the people who they pretend to be. Is this really this particular 
member of congress?
    (d) Authorization: Is this party to the communication authorized to 
be a party to the communication? This may not seem like much of we are 
just talking about two individual members of congress, but what about 
authorizing all democrats to a caucus, or all committee members to a 
meeting?
    (e) Audit: It there a record of the communication that may need to 
be consulted if a violation of security is suspected but not detected 
at the time of the violation. We may note that many of the most 
damaging attacks against security are covert attacks that can only be 
revealed through forensic analysis of logs and audits.
    (f) Availability: Is the timeliness of the communication protected 
against denial of service attacks or, even, simple system failures. We 
can note that human communication can be easily disrupted by simply 
creating artificial delays.
    These six issues need to be addressed for any aspect of the 
security problems that can be identified in the dynamic communications 
model and the systems needed to achieve a viable user interface. So, 
for example, during a vote it is necessary to determine that all votes 
are correct, they are anonymized or hidden (as with voice votes) when 
they need to be, they are coming from who they seem to be coming from, 
they are all authorized, a record is kept in case of suspected security 
failure, and the votes can be executed and completed in a timely 
fashion.
    We can also raise these six issues for any component of any 
particular process. So, for example, we can simply examine the digital 
link between two locations and confirm that the integrity of the link 
is not compromised, that the information is hidden from anyone who does 
not have a right to see it, that end points of the digital links are 
indeed the end points that they pretend to be, that the communication 
along the link is authorized, that it is audited, and that it is 
available at all times required by the dynamic communications model and 
the user interfaces.
    So, the above six security issues really multiply into quite a 
number of issues because of all the types of communications 
necessitated by the dynamic communications model and the user 
interfaces. There is no reason to enumerate all these types except to 
raise this enumeration, itself as an issue:
    4. Can we enumerate all the security problems associated with the 
dynamic communications model and the user interfaces?
    The answer is that we can probably do this. However, it is not a 
simple matter. One can take a seemingly simple act, like a single email 
message, and analyze this down through a very large number of potential 
security problems. For example, many people don't realize how easy it 
is to spoof an email server or to sniff email. It is also possible to 
create a `man-in-the-middle' that can alter the email message in ways 
meant to change behavior. The integrity of seemingly instant actions 
can also be breached by system operators. How do people know that I've 
unplugged five Members of Congress just before a vote? The practical 
method to enumerate the security problems is to enumerate or identify 
only those security problems that are suggested by risk analysis to be 
worth analyzing. The risk is ultimately to a breakdown of the 
congressional decision making itself, but minor risks, such as the risk 
of a brief delay in email delivery, is not worth mentioning.
    There are some other issues that I would term ``special issues.'' I 
will take a few of these in turn:
    5. How do we authenticate a member of congress?
    This turns out to be a very interesting problem. The simplest 
notion of authentication is that the member of congress logs in with 
his username and password. But we know that someone else may guess a 
password. We may require, then, that the member of congress use a 
physical, unique token, such as a smart card, along with a password, to 
authenticate himself as being the actual congressman in question. 
Finally, we may go beyond what the congressman has and what he knows, 
to what he is. We may use a fingerprint scanner, voice recognition, or 
an iris scanner to identify that this is truly the congressman in 
question.
    But there is more to authenticating the congressman that just this. 
In a deliberative, interactive process we may wish to constantly know 
that this is really the congressman. For example, suppose an attacker 
knocks the congressman out after the congressman logs in, and now the 
attacker can appear to be the congressman. The authentication may need 
to be continuous. This special issue of authentication can become quite 
important.
    But the special issues of authentication do not end with this. 
Since a congressman can vote, how do we know when the congressman is 
`just absent' versus if he has been incapacitated in a fashion that 
allows a secondary authority to vote in his stead? We need to both 
authenticate his presence and authenticate the nature of his absence. 
This would also be true of staff. Indeed, authenticating absence is at 
the root of much trust among members and also in establishing rights.
    6. How does the public play a role?
    The dynamic communications model will need to have a role for 
public input and public inspection of both process and decisions. 
Clearly, even the congress assembled on the hill today are concerned 
about misuses of public access--access that can distort proven 
deliberative processes. How can the public have input if the Members 
and staff are at locations where physical access is not possible? What 
kind of feedback is needed? Perhaps all that is needed is that the 
public can see the summaries of their input so that they know that the 
congress is taking note of the public debate. This is an issue needing 
serious study.
    It also brings us to still another very interesting special issue:
    7. How can we confirm that a congressman has actually reviewed the 
material we think, or hope, he has reviewed?
    If we simply look at the technical communications model, it may not 
be sufficient that the mail has arrived in the congressman's inbox. We 
may need to know that he has read the mail. With public input, we may 
want to know that the congressman has at least looked at the summary 
statistics. A very effective security attack, which can also be 
`socially engineered' by the bad guys, is to create the circumstances 
under which a decision maker does not review certain documents or 
material key to his deliberation. On the hill, a quick remark or a 
glance can confirm that someone has read a document in question. In a 
geographically distributed system, there may need to be other methods. 
Ideally these other methods will be well engineered for ease of use and 
also protect privacy where appropriate.
    Finally, let us bring up perhaps one of the most interesting of the 
special issues. This is the one that revolves around emotion:
    8. Compromise and negotiation as often as not involves a clear 
understanding of emotional commitments. How do we carry `the fair 
fight' off the hill, and into a distributed framework?
    This special issue really represents but one of a family of 
`special human issues' that greatly facilitate the process of congress. 
It is also here that I believe we are most likely to find alternate 
human strategies that are compatible with the technical infrastructure. 
There are many ways to signify that one is mad, for example. The ways 
one may use in daily person-to-person contact may be different from 
those employed over the Internet.
    This brings us, in our analysis, full circle to the original issue 
of whether we should seek perfect mimicry of process or simply perfect 
mimicry of results.
    Even though this has not been a discussion of particular 
technologies, I believe it is important to emphasize that we do know 
something about the characteristics of the technologies that will go 
into resolving all these issues. The most important characteristic is 
that the solutions will involve telecommunications and computing, and 
that the solutions cannot simply be software solutions. We know, for 
example, that any purely software solution will need some special 
component hardware to harden the security and protect member privacy.
    We also know that the only people who can actually judge the 
efficacy of a geographically distributed emergency system are the 
participants in it. Even after we think we have the issues resolved, 
there should be the expectation of practice runs, which will refine the 
process and eliminate oversights and errors.
    This, then, is my statement. I have tried to a provide a simple 
method for enumerating the issues in developing a geographically 
distributed congress that can nevertheless function as a congress 
assembled as dictated by our constitution.

    The Chairman. I want to thank you for your testimony. I 
have questions and other Members will have some questions.
    I have a question I guess I will throw out there 
generically for those who would be very skeptical or opposed to 
even embarking on an E-Congress in the event of an emergency.
    I wonder if you can go through every scenario and create 
every fire wall, which I agree should be done, and you have two 
or three other different locations, one in the western part of 
the United States, one in the Midwest, one in the East. You 
have actually prepared--we have prepared how Members would be 
picked up, if they were back home, by helicopter or 
transporter; or we would have a certain window to get to one of 
these locations, or--I think maybe Don mentioned this--you 
would have one Congress possibly, let's say, out in California 
and the other here in Washington or some other location, they 
would teleconference the two. I think that was suggested.
    Having said that, if you build every fire wall possible, 
but you have to still take an account of something that is so 
catastrophic--you can't travel, smallpox or whatever--would you 
then in the last case scenario think we should embark on an E-
Congress? Or should it just not be considered?
    Don.
    Mr. Wolfsenberger. I think you raise a very interesting 
and, not a probable but a possible scenario, and that is that 
if traffic is snarled, airports are shut down, highways are not 
moving or anything, how do you go about reconvening Congress? 
And I think either you learn to live with a slight delay until 
you can reconvene Members together, or you have this fall-back 
that you are looking at of allowing some type of rudimentary 
communication to take place, or even formal voting to take 
place, from individual Members' district offices or homes or 
whatever.
    I am just very leery of that even in that extreme event. I 
think that it might be worth waiting a week until things sort 
out a bit.
    I don't think, for instance, if we are attacked, that you 
need a declaration of war to fight back. If you are attacked, 
you are at war. So I don't think that is a big deal. I don't 
think that you are going to run out of money in the first week 
or so.
    I understand Norm's concern about having some type of 
martial law in place until Congress can get back on its feet 
and start legislating. This is what we had in the Civil War. It 
broke out in April when Congress was not in session; Lincoln 
brought them back July 4, I think it was. But in the meantime 
there was a type of martial law. But Congress then quickly 
retroactively authorized the things that Lincoln had done 
because he realized that he had gone beyond constitutional 
bounds. He asked Congress to authorize the things that he had 
done and they did so.
    So I guess I am not as uptight about those things as maybe 
I should be. I don't know.
    The Chairman. I had a fascinating conversation with 
Chairman Dreier last week. We were talking over on the floor 
and just went through scenarios, and you try to reason out how 
many would you have to have, other sites for Congress, if you 
didn't have any Congressmen. We went through just about every 
scenario that could happen.
    I do agree generically that, in my opinion, it would have 
to be just of the rarest situations; and you would have to 
look, as all the panelists have raised it, at all the other 
issues--who convenes it, where is the involvement with the 
leader and the Speaker. There are a lot of issues.
    Technologically, probably for the most part, it is workable 
unless the satellites go down and then everybody is out of 
communication. And there is nothing you can do about that once 
that happens. I do appreciate the comments on that.
    Dr. Ornstein.
    Mr. Ornstein. I would probably be a little bit more open to 
it than Don is in the end, in the worst of worse case 
scenarios. Mr. Thibadeau has raised an issue that I didn't want 
to bring up, but I think is an important one, and it is one 
that I have used frequently as I have sort of railed against 
the great trend towards vote by mail and remote voting more 
broadly in the electorate, which I think is a terrible, 
terrible trend that we have embarked on, partly because of the 
great capacity for corruption which we have seen play out in 
many places, that once you lose the sanctity of the voting 
booth, the zone of privacy, anything can happen.
    Here we know we have had at least a couple of examples of 
people misusing their voting cards even for electronic voting, 
that having this kind of process where you are voting from 
remote locations and making sure you really do have those 
individuals is no easy task.
    Having said that, if you do embark down this road--and 
maybe we need to--it is not just having fire walls. I think it 
is building in a piece of legislation or a set of rules that 
create several other triggers, options that have to be explored 
or ruled out first before this ever happens.
    Among them should be having not just one or two, but maybe 
even five or six or seven sites around the country, if Members 
are back in their districts where it might much more easily be 
possible for them to convene someplace 100 miles away. And then 
you could link them together, so that at least you have a large 
number of people together and you can see physically who is 
voting or who is acting. That is a much better possibility.
    But before we ever get to that point--and I am worried 
about martial law and I am worried about the symbol--I want the 
Congress--immediately or as soon as we can possibly convene it, 
I want the symbol for America and I want the decisions being 
made by a large number of Members of Congress. I want to have 
replacements ready if necessary. I want to take into account 
all of those contingencies.
    But if you are going to do this, it's not just saying it is 
only used under extreme circumstances, but you exhaust every 
other possible way of having a face-to-face, deliberative body 
before this is ever triggered. And then who triggers it? 
Probably you want to put this in the hands of leaders, if there 
are leaders, so you have got people who presumptively care 
about the integrity of the institution and may even want to 
protect Members from themselves, in this case, from wanting to 
do it in a convenient way.
    The Chairman. You have raised another issue. Something 
happens out here and something happens to the leaders, the two 
main leaders. They can't get to D.C. How do you elect leaders? 
Do you sit without them? It goes next in line? Those are all, 
again, issues.
    What happened--and Steny makes a great point, angst was 
beginning with the Members and with what happened on September 
11 having gone on longer, I think then the raging debate in 
this country--and it had gone on several days--was the fact 
that you didn't have a Congress, and you had one person and/or 
four or five people running the entire Government. And I think 
that, in itself, would cause a lot of anxiety in the United 
States where the citizens are used to a checks-and-balance 
system.
    Mr. Ornstein. Let me just note, if I may, Mr. Chairman, 
that the shadow government that the President, to use that 
phrase loosely, has put into place is a commendable idea to 
make sure that Cabinet offices can be kept running in the event 
of some real catastrophe hitting Washington, so that you have 
got somebody in the official line who can provide civilian 
leadership in the Defense Department, get the Social Security 
checks out, keep the CDC running and so on.
    But we have a problem with Presidential succession now that 
isn't just solved by having a Cabinet member leave the Capitol 
when the State of the Union message takes place. All the people 
in line of succession for the Presidency are Washington-based 
figures. This is another area that we need to revisit sometime 
along the way to make sure we have got some plans in place 
there.
    There are plenty of times when all of those people--the 
Cabinet, the President, the Vice President and the Speaker of 
the House and the President Pro Tem of the Senate are here in 
Washington.
    Mr. Hoyer. The focus of Mr. Langevin's bill and really what 
we are talking about is the technology of how we do this. What 
you have spoken to, many of you, is the concern--Don, you 
particularly, and David Dreier--of whether we ought to do this; 
and if we do do it, how do we limit it to a very short period 
of time and the exigency that there is no other way to do it. 
There are obviously some pretty profound questions here raised 
by Mr. Baird's bill and by the technology of remote meeting.
    Dr. Ornstein, you mentioned the Constitution, whether we 
will have to amend the Constitution to provide for that. I will 
ask this question and maybe one of you knows the answer.
    You referenced, or somebody made reference to a provision 
of the United States Code, paragraph 27, where the President 
can change the place of meeting of Congress if we have a 
biological attack or a plague or quarantine or something of 
that nature precluding meeting here, in Washington. Article 1, 
Section 5, paragraph 4, of the Constitution says, ``Neither 
House, during the session of Congress, shall, without the 
Consent of the other, adjourn for more than three days, nor to 
any other place than that in which the two Houses shall be 
sitting.''
    Has there been any discussion about section 27 as it 
relates to paragraph 4 of Section 5 of Article I in terms of 
what does ``place'' mean? For instance, if we are all around 
the country accessing perhaps West Virginia, which may be a 
central location for communication, what are the ramifications 
of relationship between those two? Are there any? And, 
therefore, would a constitutional amendment be necessary? I 
think, Norm, you suggest it might be, to allow even for the 
contingency of electronic accessing and debate and voting.
    Mr. Ornstein. There are some questions, open questions 
really, about what ``place'' means, whether it means the 
physical building of the Capitol, the seat of government in 
Washington itself.
    I think, actually, that section 27, nobody has challenged 
it, but it could be challenged if somebody had standing in 
terms of whether in fact it would be constitutional for the 
President to basically say, you can meet somewhere outside of 
Washington, even in the event of an emergency, without amending 
the Constitution.
    I do think it may be possible to do something protectively 
here, and that would be just simply to have the House and 
Senate each pass resolutions providing for the other body to 
meet in the event of some emergency, to give them that a priori 
approval so that you do not have to worry about the 
constitutionality of it if one body is taken out.
    But with all of that--and these are questions that have to 
be resolved--my conclusion that we need a constitutional 
amendment is related to that, but it is not that specifically. 
It really is that I fear, even if we do as Don suggests and 
change the rules, so that you can change the meaning of a 
quorum--and that has its own constitutional issues, but I think 
it is doable--I just think that if you ended up where decisions 
might have to be made that included picking a new Vice 
President, as well as deciding meeting places and so on, that 
if you had 430 Members of the House out of commission and five 
Members constituting the body and you defined it so that three 
could provide a quorum, that is just not adequate. So we need 
to make sure that we have a quorum in place by any reasonable 
definition so that we can make these kinds of decisions, 
including decisions about a meeting place.
    That, to me, leads me reluctantly to the conclusion that we 
need to have a provision in both Houses for some kind of 
temporary replacement membership in the event of death or, even 
more particularly, of incapacity.
    Mr. Wolfsenberger. Mr. Hoyer, 2 U.S.C. 27, I just learned 
this morning from Roman Buhler on your staff, was enacted 
initially in 1794; and a little light went on in my head, 
because yesterday I was reading about the yellow fever epidemic 
that hit Philadelphia, which was then the capital, in August of 
1793. The Congress was not meeting then; the entire government, 
the executive branch, what there was of it, moved to Germantown 
until this epidemic passed.
    But it would make sense that the Congress would deal with 
that issue when it did come together, I think in December of 
1793, and that was probably the basis of that law. Hamilton 
almost died of yellow fever in 1793 because he and Jefferson 
stayed behind in Philadelphia. Jefferson didn't catch it, but 
it was quite a crisis for the government. About, I think, a 
tenth of the population of Philadelphia died in that epidemic--
4,000 out of 40,000.
    Mr. Hoyer. Let me ask another question that deals perhaps 
more broadly with the Baird proposal and how we provide for the 
contingencies, but also, in terms of communication, ultimately 
what you are communicating and who the Members are.
    In some States if a Member of a party dies in a State 
legislature, that legislator must be in the interim--if there 
is a provision for appointment, as there is in our State--that 
legislator must be from the party of the deceased Member. In 
the United States Senate, of course, that is not necessary; and 
obviously governors are free to appoint whomever they want, and 
we have seen party changes on a relatively frequent basis as a 
result.
    Again, this is related more to the Baird proposal, but it 
occurs to me, for instance, not an unreasonable hypothetical 
scenario if the Republican Conference meets in the House 
Chamber in the Capitol and the Democratic conference meets in 
the Cannon Building and a disaster occurs. It could occur that 
one party--because they meet in different places for caucus--
one party could be disproportionately eliminated, if you will, 
so that if that occurred, you would then have a tremendous 
imbalance.
    Has there been any thought to perhaps requiring that that 
balance be maintained at least in the short term?
    Mr. Ornstein. This is something that we have grappled with 
a lot, and many of your colleagues expressed concern about 
having a governor--when a hearing was held in the Judiciary 
Subcommittee on the Constitution, Mr. Nadler expressed concern 
that if we had had this awful problem, it would be a governor 
of the other party picking a Member to replace him.
    Senator Specter has introduced a companion measure to 
Representative Baird's, and it requires that an appointment be 
of the same party. Mr. Baird didn't put that provision in 
because the term ``political party,'' of course, is not 
mentioned anywhere in the Constitution, and he didn't want to 
be the first one to do so.
    I dealt with it another way in a draft amendment that I 
prepared that--I might note we have a Web site with all of 
these issues discussed and different proposals, including Mr. 
Wolfsenberger's and Mr. Baird's and others that are in my 
testimony. By using an alternative that Delaware adopted during 
the Cold War--and many States adopted proposals to deal with a 
catastrophe, or potential catastrophe, during the Cold War--
what Delaware has done is, it enables the members of their 
legislature to designate in advance no fewer than three and no 
more than seven successors in the event of some catastrophe, 
and then the governor chooses from that list. To me that is 
much better way.
    First of all, if you--I don't want to introduce party into 
the Constitution. The term ``party'' can be a fairly 
meaningless one. A governor can manipulate that obviously to 
pick someone who is nominally from a particular party, but it 
would be far better to have that kind of a plan. That, I think, 
is also a far better way to go than the proposal that former 
Speakers Gingrich and Foley have made to just simply have the 
Members designate successors who then serve without any kind of 
appointment, which has its own constitutional problems.
    Mr. Hoyer. Dr. Thibadeau.
    Mr. Thibadeau. There has been sort of an assumption that 
the technologies would come in here at the right place. I think 
the main comment I was trying to make was that the actual 
technology for doing this is not known. We don't know what the 
technology is, period. There is no question about that.
    The right way to approach the technology is to try to build 
an analytical model, to try to understand what actually has to 
take place, and in that you will get the questions of what are 
the Democrats, what are the whole party issues.
    But it is a whole; you can't take this out in pieces and 
hope to solve one little piece and then the rest of it will 
sort of fall together.
    I strongly support--I think it was Langevin's--having NIST, 
for example, look at this in some detail and then just work it 
out to see exactly what the thing would look like. Then, after 
you have looked at what it would really look like in detail, 
then a lot of these other things sort of start bubbling to the 
surface and they become clearer.
    Mr. Hoyer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Doolittle.
    Mr. Doolittle. I have a far more pedestrian question for 
you gentlemen. Do you think there is any constitutional or 
legal problem posed by the Houses of Congress deciding to hold 
a session some other place than in Washington?
    Mr. Wolfsenberger. I am not a constitutional scholar, but I 
think you have to look hard at the clause that we have just 
discussed. I think it can be done with the consent of the 
Senate. As I say, I am no constitutional expert, but I think 
you can do it.
    When you think about all the logistics involved in running 
the House of Representatives on a daily basis and whether you 
transport all that to another place, notwithstanding the 
important symbolic value of going to New York, which we are 
talking about here, I just think that you could have--I think 
it would be much easier to have a ceremonial type of session 
convene up there than to try to transplant the entire system to 
New York and do actual business.
    Mr. Doolittle. Just following up on that, then do I infer 
correctly that you see no legal or constitutional problem with 
them doing so?
    Mr. Wolfsenberger. I don't, no.
    Mr. Ornstein. You can't convene, I think, other than a 
ceremonial session just at whim. You are going to have to get a 
resolution from the other House approving it. If you are 
actually going to meet and do something officially, that has to 
be done. It doesn't require an additional constitutional 
amendment.
    I think it is absolutely terrific that the Speaker is 
taking it upon himself to try and pull together some resources 
to make sure that there are alternative meeting sites that have 
all the accoutrements necessary to have a full meeting of the 
House. As we saw with the backlash that developed, even when 
the anthrax scare occurred, that happened basically because 
Congress had no other place to go at that point. I think the 
Speaker and the minority leader made the right call to protect 
people. But if you had had another place to go, you could have 
gone and done work and nobody would have criticized you. There 
was no other place.
    You have got to make those plans. In the process of making 
those plans, you also have to make sure that you pass the 
resolutions in both Houses in advance so that you have the 
legal and constitutional authority to conduct those meetings 
and actually conduct official business. But then it is doable.
    Mr. Doolittle. Back to my question, then--and you addressed 
the first part of your comments to it--if the Houses passed a 
resolution to go meet in New York or Philadelphia or Kansas, 
that would be okay?
    Mr. Ornstein. Yes.
    Mr. Doolittle. Then may I ask the opinion of the other two 
gentlemen?
    Mr. Thibadeau. I definitely have no opinion.
    Mr. Doolittle. Okay.
    The Chairman. Dr. Frantzich.
    Mr. Doolittle. Yes, Dr. Frantzich.
    Mr. Frantzich. As I listened to this debate, I was reminded 
about a number of years ago when there was a question on 
whether congressional records were documents when they were in 
electronic form. And there were numerous hearings on these. The 
lawyers weighed in; it really got down to a question of whether 
people of good will could look at a word in the Constitution or 
in the rules in a different kind of a way.
    Again, I am not a constitutional scholar, but, to me, 
``convening'' is a rather wide open kind of a word and doesn't 
necessarily mean that all people have to be in the same room at 
the same time.
    Mr. Doolittle. Okay. Thank you.
    I have read in the comments of some of the Members that the 
House of Representatives is the greatest deliberative body in 
the world. I shudder for the world if that is indeed true. 
Perhaps it may well be true, but I would venture a guess that 
just about any State legislature on a regular basis is far more 
deliberative than either the House or the Senate. At least that 
is my experience.
    Mr. Wolfsenberger. Could I comment on that?
    Mr. Doolittle. Yes.
    Mr. Wolfsenberger. You recall reading about Speaker Thomas 
Bracket Reed back in the 1890s, someone asked him once, ``Is 
the House a deliberative body?'' and he said, ``No, and I thank 
God it isn't.'' but I think he was talking about the House 
assembled as a whole.
    And I think the real deliberation, as Woodrow Wilson noted 
in 1885, goes on in the committee rooms. That is where you 
really thrash out ideas and alternatives and have your 
arguments. The House is just sort of a Congress on public 
exhibition, as Wilson put it; but Congress in committee rooms 
is Congress at work. The real deliberation, I think, does and 
should go on in the committees. You have your debates and sort 
of rehash some of the things that went on in the committees on 
the floor of the House and the Senate, but that is not as 
deliberative as the committee system is.
    Mr. Doolittle. I just mention that because I think certain 
things have happened, certain reforms and changes have been 
made; and the full ramifications of those, it was never 
contemplated. I enjoy C-SPAN as much as anybody, but I would 
argue C-SPAN dramatically altered the characteristics of debate 
in both the House and the Senate, whereas Members now are 
basically addressing a national audience directly versus 
addressing each other.
    It used to be, I think until the middle 1960s, that 
committees were not allowed to meet simultaneously while the 
House was in session. That remains the rule, I know, in the 
California legislature and I would guess in many of the others. 
The fact that committees can meet now has basically, 
fundamentally altered what goes on on the floor of the House. 
We all just have come to accept this.
    If we set some kind of a precedent here, on an emergency 
basis, of allowing us to remotely conduct the business of 
Congress, each of us from a different place, I would be very 
concerned about that. That cure might be worse than the illness 
we are trying to address.
    As others have counseled, my own opinion would be, this 
should be very carefully considered and we should be very 
deliberate in what it is that we do before we set in motion 
something that will have ramifications that we have not 
contemplated.
    Thank you, Mr. Chairman.
    The Chairman. I have one, and I think there are going to be 
some votes called, but one other question for Dr. Frantzich and 
anybody else who would like to also answer.
    You have raised an interesting issue when you talk about 
the fact that, if this would progress on, you look at the 
technology, you compare what we are doing and we look back and 
it would be like an 8-track tape.
    Are there computer think tanks that are thinking other 
generations about communication that if we didn't proceed with 
this, we at least could look at that technological side, the 
progressive thinkers with computers?
    Mr. Frantzich. I couldn't hear your question. It was a 
little garbled in the translation.
    The Chairman. Bottom line, you had mentioned about the 8-
track scenario, 8-track tape. What I was wondering is, are 
there think tanks that we can look at that are looking at other 
generations of communication, so if we did proceed with this, 
we would be looking at the top thinkers in the country when it 
comes to computers and technology, to look at not just maybe 
establishing an E-Congress through an encrypted phone system, 
but other things we could look at?
    I just wondered if you had suggestions.
    Mr. Frantzich. I don't have any particular companies, but I 
think that some of the advances that are being made in 
electronic classrooms which are trying to simulate human 
interaction from remote spots, I think those might be some of 
the places to look.
    There are some demonstration-type classrooms. I know the 
University of Maryland and other places that might give you a 
feel for what the technology can do.
    Mr. Ornstein. Mr. Chairman, I would make a couple of 
suggestions. There are a couple of foundations that have a 
strong interest in these issues more broadly, and I think if 
the committee contacted the Markle Foundation in New York----
    The Chairman. Did you say Markle?
    Mr. Ornstein. Markle, M-A-R-K-L-E.
    Which is focused around telecommunications issues, but also 
democracy, and the Pew Charitable Trust in Philadelphia.
    Also, there is a telecommunications program at the Aspen 
Institute here in town where you might find a strong 
willingness--you would find, I am sure, a strong willingness to 
perhaps act to convene a group of people to discuss these 
issues, to perhaps help you along, even as the National 
Institutes of Standards and Technology perhaps was moving in 
this direction as well.
    Pew, as you know, has funded the civility retreats that the 
House has conducted in the last few years.
    The Chairman. Are there any further comments?
    Yes?
    Mr. Thibadeau. I think that Mr. Ornstein's comments are 
correct. One of the things that I would like to sort of 
emphasize here is that there are lots of really advanced 
technologies and all this other stuff, but there needs to be an 
analysis of what actually needs to take place that precedes 
going to look at these technologies.
    Rather than going and looking at technologies and letting 
the technologies drag you, the best thing to do is decide what 
it is that you need and then go ask the technologies to deliver 
that.
    The Chairman. Any other questions?
    Mr. Hoyer. Dr. Thibadeau, you have made that point 
throughout your presentation. I think it is an excellent point; 
I would agree with you 100 percent. I would imagine everybody 
does.
    But the other thing that I want to make sure that we all 
agree on: I agree with David Dreier and with all of you and 
with others who have said that the coming together is a 
critical component of democracy. I agree with Dr. Ornstein. I 
am not a fan of these processes which try to make democracy a 
remote, either electronic or mail-type participation at arm's 
length. It is anticommunitarian, and I am a communitarian.
    Having said that, however, and having adopted David 
Dreier's admonition to proceed slowly and with caution, am I 
correct that we all agree that there may be a contingency where 
this need for electronic connectivity would be necessary? I 
certainly agree, and I presume all of you do, that that 
contingency ought to be pretty clear to activate it and pretty 
severe, in that context.
    In other words, nobody, am I correct, is saying that we 
ought not to consider this at all because it just wouldn't be 
the way to go at all? Am I correct?
    Don, why don't we start with you?
    Mr. Wolfensberger. I probably expressed that, I guess in 
the dire circumstances Mr. Ney mentioned, where you have got no 
way to get around and you have got Members stranded in their 
districts, you have obviously got to have something available, 
that there can be some type of convening orally or by computer 
or otherwise to get some work done.
    So I think you certainly have to explore that possibility.
    Mr. Thibadeau. Another place to look, which just dawned on 
me, is the communities on the Internet. I will mention one, 
just from personal family experience, is called neopets which 
has 30 million children globally on it. They are able to engage 
in Congress. They have neo money, they do all the things they 
have to do. These are very interesting places to look to see 
how large communities of people are actually interacting and 
viably, living on it, you can actually see this stuff and it is 
kind of interesting to watch that.
    Mr. Ornstein. I have misgivings about a lot of this stuff. 
The Supreme Court says virtual pornography is okay. I am not 
sure that virtual government is something that we really want 
to aspire to, in a lot of ways.
    But, yes, we have to consider this. And I think frankly it 
was frustrating in October, November and December and January 
getting many of your colleagues to even pay attention to these 
issues at all. It is partly human nature. Nobody wants to 
contemplate the possibility of their own demise.
    But I think it is incumbent upon you to move 
deliberatively, but not all that slowly, and very carefully. 
But you have to look at every contingency. You have to look at 
every scenario, which are now not nearly as remote as they were 
before September 11, in real terms, and develop plans. It is 
really your responsibility to do so. I would like to find ways 
to make the body more deliberative, on the floor at least.
    Mr. Doolittle, let me bring back a pet idea of mine that I 
pushed for years, that we tried out just once and then 
abandoned, and that is to have real debates on the floor of the 
House, almost Oxford-style debates. We actually got it going, 
we did a couple and they were too unwieldy because there were 
too many Members involved.
    But we could actually find ways, I think, to engage this 
body in the great national issues in a way that would actually 
bring the public in more. But the deliberative process is not 
just the debate on the floor, of which we have little in the 
House, no doubt. It is a lengthy process, as the framers saw 
it, of bringing people together, interacting face-to-face, 
informally and formally, seeing the perspectives of people from 
completely different areas of the country, from completely 
different backgrounds and beginning to understand them and then 
slowly building a consensus that develops into policy. That is 
what we mean by a deliberative process.
    We can all agree that the Senate does not fit as the 
greatest deliberative body, maybe not the State legislatures, 
may be right there; but the House, in that sense, really is a 
great deliberative body because we have the greatest range of 
people in the country together and you can learn from each 
other. We do less of that than we used to, partly because of 
this Tuesday-to-Thursday schedule, I think, and the demands of 
fund-raising and other things have made it harder for people to 
spend time together, and especially across the aisles. We have 
got to find better ways to deal with that.
    But the larger point is that we can't abandon what the 
framers wanted, but you have got to prepare for contingencies 
that nobody ever could have considered in 1789, much less in 
1999. That is clear.
    The Chairman. You raise a lot of issues, and we--at least 
to the process, we really owe a discussion of this thoroughly, 
of bringing minds together.
    This committee--and I commend the Members and the staff--
was in a situation after September 11 to receive hundreds of 
suggestions and ideas, things that we never ever had to think 
of. We would have been laughed out of this building on some of 
the things that we talked about that we need to do for the 
future, in order to keep the people's House going.
    But 9/11 caused that. It has changed the way we look at 
items. I do think that it is important, this debate.
    Mr. Frantzich. I am not quite sure how to jump in in a 
teleconference. I have learned that out of sight is kind of out 
of mind perhaps. But we all buy insurance, hoping we will never 
have to use it. I think being prepared is maybe one of those 
pieces of insurance that we might want to buy.
    Second, perhaps it would give a terrorist pause to know 
that he couldn't bring the U.S. Congress to its knees if we had 
a contingency plan that we could use.
    The Chairman. Good point.
    Mr. Hoyer. Mr. Chairman, I don't know how many people know. 
I know all the panelists must know, but obviously had we been 
hit, the personnel may not have been available. But what 
happened post-September 11 was, the Congress was fully prepared 
to act in an alternative site within 6 days.
    We could have met, and we could have transmitted what we 
were saying in real time and in pictures to the American 
public, so that in a very short period of time post-September 
11, by the 16th or 17th at least, we would have been able to 
convene.
    As it happens, it was not necessary that we do so, but the 
staff did an extraordinary job. This committee was very 
involved in that. We didn't have a contingency plan at that 
point in time. It just came together through some very hard 
work and good thought.
    But I agree with the witnesses who have said that if we 
have a contingency plan, it will give people pause to think 
that they can accomplish their objectives, although in some 
respects what their objective was, at least on September 11, I 
think, was more to damage symbols; and they got a bonus, they 
damaged substance. For at least a short period of time, air 
flight, the markets were shut down, although for an incredibly 
short time given the damage that occurred; so we did come back 
very, very quickly.
    But their effort was symbols. And as Dr. Ornstein pointed 
out their targets were probably the greatest symbol of 
democracy in the world. We may not be the greatest deliberative 
body--although I would differ with my colleague, deliberative 
bodies look a lot better far away than they do up close--but 
that is the nature of human interaction, I suppose. There is a 
song about that, ``From a Distance.''.
    The fact is that I think the preparations that we need to 
pursue--Doctor, you reiterated, I agree with you, we need to 
figure out what we want. I think what we want is the ability of 
the people's Representatives, the Senate and the House, to 
continue to make decisions notwithstanding the destruction of 
physical symbols and a significant number of our body, both in 
the very short term, that is, in days and hours, and in the 
longer term in this context, weeks and months.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. I want to thank all the panelists for joining 
us.
    With that, I would like to ask unanimous consent that staff 
be authorized to make technical and conforming changes on all 
matters considered by the committee in today's hearing. Without 
objection, it is so ordered.
    I also ask unanimous consent that Members and witnesses 
have 7 legislative days in which to submit material for the 
record, and that those statements and materials be entered in 
the appropriate place in the record. Without objection, the 
material will be so entered.
    And having completed the business for today and for this 
hearing on E-Congress----
    Mr. Hoyer. Mr. Chairman, can we tell Dr. Frantzich, he is 
not out of sight? We can see him. He is right in front of us on 
the television.
    The Chairman [continuing]. This hearing is hereby 
adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
